<html>
<title> - OVERSIGHT HEARING ON U.S. FOREST SERVICE ROAD MORATORIUM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





        OVERSIGHT HEARING ON U.S. FOREST SERVICE ROAD MORATORIUM

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     MARCH 4, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-11

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
55-773                     WASHINGTON : 1999



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                                     ---------- ----------
                                     ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 4, 1999.......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statement of......................    47
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan..........................................     5
        Prepared statement of....................................     7

Statements of witnesses:
    Adams, Dr. David L., Professor of Forest Resources, Emeritus, 
      College of Forestry, Wildlife and Range Sciences, 
      University of Idaho, prepared statement of.................    40
    Marlenee, Hon. Ron, Consultant, Government Affairs, Safari 
      Club International.........................................     2
        Prepared statement of....................................    41
    Stewart, Ron, Deputy Chief, U.S. Forest Service..............    29
        Prepared statement of....................................    44
    Svoboda, Kelita M., Legislative Assistant, American 
      Motorcyclist Association...................................    17
        Prepared statement of....................................    43

Additional material supplied:
    Amador, Don, Blue Ribbon Coalition, prepared statement of....    56
    Briefing Paper...............................................    26
    Squires, Owen C., Pulp and Paperworkers Resource Council, 
      Rocky Mountain Region, prepared statement of...............    48

Communications received:
    High Country News, preprinted................................    50

 
        OVERSIGHT HEARING ON U.S. FOREST SERVICE ROAD MORATORIUM

                              ----------                              


                        THURSDAY, MARCH 4, 1999

              House of Representatives,    
                        Subcommittee on Forests    
                                     and Forest Health,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
1324, Longworth House Office Building, John J. Duncan, Jr. 
presiding.
    Mr. Duncan.  We are going to go ahead and call the 
Subcommittee on Forests and Forest Health to order. I want to, 
first of all, thank everyone for being with us; particularly 
the witnesses.
    Mrs. Chenoweth, the Chairwoman of this Subcommittee, has 
become ill. So, I was planning to attend anyway. They asked me 
to fill in for her and Chair this particular hearing.
    Today the Subcommittee on Forests and Forest Health 
convenes to review the Forest Service's current and proposed 
road management policies. In particular, we will focus on the 
Forest Service's progress in developing a long-term road 
management policy, which it initiated in January 1998; January 
of last year.
    We will also look at the agency's 18 month moratorium on 
construction and reconstruction of roads in roadless areas; 
certainly, a very controversial subject.
    This moratorium was first announced 13 months ago. It 
formally took effect only this week. This policy has generated 
a great deal of interest and concern over the past year.
    Since the Forest Service should now be approximately 2/3 
completed with the development of its long-term road management 
policy, I think we need to ask why the agency chose to 
announce, 3 weeks ago today, the beginning of the 18 month 
moratorium?
    I fear it is because they have not accomplished much on the 
long-term policy. Last year, after his initial announcement of 
the moratorium, Chief Dombeck testified that the moratorium was 
not yet in effect.
    In reality, it has been in effect ever since because the 
Forest Service's land managers immediately altered any plans 
they had to enter roadless areas that would qualify under the 
proposed moratorium.
    By my count, that in effect really makes this a 2.5 year 
moratorium. One of the biggest concerns that many have with the 
moratorium is its effect on the condition of our forests.
    The Forest Service has repeatedly told us that they have 40 
million acres of national forest land at high risk of 
catastrophic fire.
    Their new insect and disease maps verify that this risk is 
only increasing. Dr. David Adams, Professor of Forest 
Resources, Emeritus, at the University of Idaho submitted 
testimony for our hearing, but unfortunately could not attend 
today.
    He is well-known for his work on forest health and 
sustainability. I think almost everyone greatly respects his 
views.
    Dr. Adams wrote, ``I am concerned that without adequate 
access, we will not be able to manage for sustainable 
forests.''
    [The prepared statement of Mr. Adams may be found at the 
end of the hearing.]
    Mr. Duncan.  I think many people are concerned that we may 
be under estimating the impacts of the moratorium. The 
Washington Office has reported how many miles of road and how 
much timber volume will be impacted in planned timber sales and 
forest projects over the next year.
    Yet, we really have not received adequate information on 
the extent of the impacts on the local communities that will 
surely occur if the volume is not replaced by other sales 
available to the same local economies during the same period.
    I hope that witnesses today will give us more details on 
the full impacts. I am particularly concerned, of course, about 
the effects in the Southern Appalachian area.
    There are also great concerns about recreation access. We 
have two excellent witnesses available to address this subject. 
So, I look forward to the testimony of all of the witnesses.
    I thank you for your willingness to appear before us today. 
I now will recognize Mr. Kind for any statement that he wishes 
to make.
    Mr. Kind.  I have none.
    Mr. Duncan.  All right. Then I will go to Mr. Peterson for 
any statement.
    Mr. Peterson.  I do not have one.
    Mr. Duncan.  Well, thank you very much.
    We will then call up the first panel.
    I believe the first witness scheduled is Mr. Stupak, but I 
do not see him here yet. So, we will go to the second panel, 
which is former Congressman Ron Marlenee, a friend of many of 
us here in the Congress, who is a Consultant for Government 
Affairs for the Safari Club International.
    Ms. Kelita Svoboda, who is the Legislative Assistant for 
the American Motorcyclist Association. I appreciate both of you 
being here with us.
    Congressman Marlenee, we will let you proceed first. Then 
we will go to Ms. Svoboda.

STATEMENT OF HON. RON MARLENEE, CONSULTANT, GOVERNMENT AFFAIRS, 
                   SAFARI CLUB INTERNATIONAL

    Mr. Marlenee.  Mr. Chairman, former colleague, it is my 
pleasure to be here with you again.
    The Safari Club International is an organization 
representing a broad spectrum of sportsmen. I thank you for 
having this hearing today and focussing on access. One of the 
greatest problems that sportsmen have today is access.
    Madam Chairman, Subcommittee, the greatest threat to the 
future of hunting is sufficient access for those who are not of 
substantial means. It appears we now have an agency that is 
about to curtail that access even further than they have in the 
past.
    I appear here today as a Consultant for Governmental 
Affairs for Safari Club International. In my 16 years in 
Congress, I served on committees responsible for forest 
management, in both Agriculture and the Resources Committees.
    I have seen good management and I have observed bad 
management. I have seen good proposals and bad proposals. The 
proposal to unilaterally close roads is a bad proposal for 
sportsmen and other recreational users.
    The proposal is so bad, that it has dedicated local 
professionals in the Forest Service shaking their heads. As a 
matter of fact, professionals bold enough to do so, are 
speaking out in opposition. Those who are not bold enough are 
privately expressing the resentment of the agenda of lock-up 
and lock-out.
    At Missoula, Montana on February 6, 1999, in an AP wire 
story, Chief Dombeck equated recreational sportsmen to the 
timber industry and grazing.
    He stated, ``The recreation industry needs to take note. 
They need to look at some of the issues the timber industry ran 
up against 20 years ago. The side boards for recreation are no 
different than those for timber and grazing interests.''
    In the same delivery, he expressed satisfaction in the 
reduction of timber harvest by 70 percent during the past 10 
years. Can we extrapolate from this that the Chief means or 
wants to see a similar reduction on our public lands in 
recreational use?
    The road closure effort is not a timber issue, as the 
Administration has been trying to spin it. This is a reduction 
in access, in hunting opportunities, a reduction in 
recreational use, and can be termed a recreation/hunter, access 
issue.
    The Chief congratulated those managers who proposed banning 
cross country travel with all terrain vehicles. Their proposal 
would limit ATV use to established roads and trails.
    Then, if course, they propose to eliminate as many roads 
and trails as possible. This, of course, means ATVs would be 
really a thing of the past. It also has serious implications 
for snowmobiles.
    The lock-up agenda is not new. I recall approximately 15 
years ago, a coalition of privileged users set down on paper 
these goals and agendas they wanted to achieve:

        (1) eliminate timber harvest;
        (2) eliminate as many roads as possible;
        (3) eliminate all mechanical motorized use;
        (4) secure all of the wilderness possible;
        (5) eliminate horses;
        (6) eliminate hunting; and
        (7) establish limits of human intrusion.
    Of course, the Forest Service has in place regulation that 
does limit human intrusion through, what they have termed, 
limits of acceptable change.
    Subcommittee, because access on public land is important to 
recreation, to game management, and to sportsmen, we would have 
to question if the proposal to limit access on public land is a 
political decision.
    The answer, the evidence that answers that question seems 
to indicate a strong yes. Of the seven items listed on the 
agenda, five have been or are being accomplished. The Purist, 
given the opportunity that they have, have not quite come to 
the point of eliminating and eliminating horses. However, ever 
increasing regulation and requirements on horses in wilderness 
is moving that way.
    The protection of designated species is moving toward the 
limits of intrusion or limits of acceptable change. We have to 
question what happened to the validity of the forest management 
plans that everyone participated in that taxpayers spent 
hundreds of millions of dollars on?
    We have to ask if the Forest Service is repudiating the 
credibility and credentials of its own personnel and the 
validity of its own findings? These were the professionals who 
evaluated the watersheds, the wildlife sensitive areas, the 
recreational needs, the validity of roadless and wilderness 
designations.
    Now, the Forest Service appears to want to throw all of 
that out of the window and to unilaterally, without 
professional evaluation, without public input, throw it out the 
window.
    We, as sportsmen, we question the intent of a suddenly 
conceived or politically-instigated concept that the 
bureaucracy must invoke a moratorium that involves themselves 
in a new round of evaluations of existing access to property 
that is owned by the American taxpayer.
    If the Forest Service, Mr. Chairman, must persist in this 
duplicative effort, then sportsmen should have the opportunity 
to participate in a hearing on every forest. When ill feelings 
already exist about being denied access, then to deny them the 
opportunity for input is an insult to the elderly, the 
handicapped, the family-oriented recreationalists, and 
sportsmen.
    We want to ensure that this new effort does not further 
erode an already diminishing access to public lands. 
Increasingly, sportsmen are coming up against pole gates, 
barriers, no motorized vehicle signs when they arrive at the 
edge of public property.
    This Subcommittee, Mr. Chairman, should demand to know how 
many miles of roads have been closed in the past 10 years, and 
how many pole gates, and tank barriers have been put in the 
last 10 years. The Forest Service already has closed miles, and 
miles of road.
    In closing, let me say in an effort to justify further road 
closures, the Forest Service implies that hunting in the forest 
system is having, in their document, is having a negative 
impact on wildlife.
    They contend that access has led to ``increased pressure on 
wildlife species from hunters and fishermen.'' My experience in 
Congress in dealing with the problem is that the Forest Service 
consults extensively with State Fish and Wildlife agencies. 
That the jurisdiction of fish, wildlife, and hunting is 
primarily a State right and responsibility.
    Because of the Forest Service allegation which appears in 
their public document, because it impugns the role of hunting 
and conservation, because it denigrates the capability of State 
wildlife management, I would suggest that this Subcommittee 
require the Forest Service to name even one state, one state, 
that is not fulfilling their obligation.
    We know of none and resent the fact that this ill-thought 
out statement is being used to justify closure considerations 
that could be harmful to wildlife.
    In closing, let me quote Bruce Babbit in February of 1996. 
``Many Americans do not realize what an enormous contribution 
hunters, anglers, recreational shooters make to conservation of 
our natural resources.
    In fact, these individuals are among the Nation's foremost 
conservationists, contributing their time, money, and other 
resources to ensuring the future of wildlife and its habitat.
    Under the Federal Aid Program alone, a total of more than 
$5 billion in excise taxes has been a total of more than to 
support State conservation programs.''
    This statement should be handed, personally handed, to 
Chief Dombeck with the question, do you really want to curtail, 
and to severely limit, one of the greatest conservation success 
stories of all time.
    I thank you for your time, Mr. Chairman and Subcommittee 
members.
    [The prepared statement of Mr. Marlenee may be found at the 
end of the hearing.]
    Mr. Duncan.  Thank you very much, Ron.
    Ms. Svoboda, I am going to apologize to you. What I am 
going to do is Congressman Stupak has just come in. I am going 
to let--Bart, if you will step up. We will let you present your 
testimony.
    Then we will let you get on your way because I know you 
have many other things that you need to be doing. So, we are 
pleased to have you here with us. You may proceed with your 
testimony.

  STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Stupak.  Thank you, Mr. Chairman.
    I apologize for being a few minutes late there. I ask that 
my full statement be made a part of the record.
    Mr. Chairman, if I may, I am very concerned. I have 
testified before against the Forest Service's proposed 
moratorium of no roads in our National Forest.
    I am very concerned that the moratorium on forest roads 
will undermine the hard work done by our local citizens and 
subvert agreements that have already been reached to manage our 
National Forests.
    Mr. Marlenee mentioned the fact that a lot of money was 
spent on it. In my District, I have two National Forests; the 
Hiawatha and the Ottawa.
    We have reached agreements with the Forest Service as to 
how these forests are going to be managed. To do it, we gave up 
some rights; the local people gave up some rights. We sat down 
with the Forest Service and said, let us reach some agreement.
    Let us manage our forests properly so we can have healthy 
forests. We are above cost in the forests in my neck of the 
woods. We gave up certain things. Now, the government comes 
back 10 years into these agreements and says, forget it. That 
agreement is going to be superseded by new policy out of 
Washington.
    We cannot continue to have government that enters into an 
agreement with people, and then because of a change in policy, 
we break those agreements. Those are binding agreements. They 
should remain in force.
    Mr. Chairman, when you do this, if you stop the roads in 
National Forests, then you have no access to the timber. So, 
what do you do? You put pressure then on the State forests and 
private lands to open themselves up.
    So, if there is an environmental concern, you may be 
protecting that piece of environment in the National Forest, 
but you are putting greater pressure and degrading the 
environment on private property and State forests because they 
will not be able to handle the increased demand to access the 
timber on State and private lands.
    The Forest Service, itself, estimates that 40 million acres 
of its forests are at great risk of being consumed by wildfire. 
In the Upper Peninsula of Michigan, we are getting disaster aid 
because of the drought we had last year.
    We have not had much snow this year. That timber is ready 
to explode. How do you get to it if you do not have roads? I 
mean, all you are doing is you allow the trees to die if you do 
not have access to it; more trees rot every year since 1991 
than we are cutting up there.
    If that is the case, you are just creating a great fuel 
source for forest fires. When you have a region that is in a 
drought, one strike of lightning, then we are going to have 
some problems up there. That is another thing I wish we would 
take a look at.
    Also, we have the risk of not just forest fires, but also 
disease. You cannot have proper management if you cannot get to 
the forests. So, I think this policy is ill-advised, to say the 
least.
    The impact just on jobs. Again, let me go back to my 
testimony last year. The Administration, with some information 
provided by them, felt that as the result of the policy, 
probably 12,000 jobs would be lost throughout the United 
States.
    I know 12,000 does not sound like a lot throughout the 
United States, but in a District where even right now in these 
big economic boom times, we are still running at 7 percent 
unemployment.
    Most of my District is timber-related. That is going to 
significantly impact upon my District. I know that people say 
well, look, these roads are just there to support big 
companies.
    I disagree. The big companies in my District, like 
Champion, Meade, and Louisiana Pacific, they have their own 
forests. They manage them. In contrast, the small operations, 
in order to feed their mills, whatever it may be, veneer, the 
plywood, or the paper mills, it is the little guy, the mom-and-
pop operation that is out there cutting the timber, trucking it 
to the mills, and trying to make a living.
    Those are the people who are really hurting with this 
policy. It is not the big paper companies, the big forest 
producers, or timber producers.
    Also, Mr. Chairman, we fail to recognize that local 
communities benefit when we do have cutting on National Forests 
because 25 percent of the money that is generated off the 
timber sales go into local units of government, into PILT 
payments, and for local taxes to provide for the schools, to 
provide for emergency management, to provide for the local 
government services that we need.
    So, it is reported that if this policy goes into effect, 
that 25 percent really represents $160 million in revenue at 
local school boards, road commissions, that everybody else 
would lose.
    So, Mr. Chairman, when you take a look at it, not only are 
we concerned about the environmental impact and the economic 
viability of the timber programs, I am afraid that the working 
men and women in small rural communities, like I represent, are 
really the ones who are at the short end of the stick.
    We entered into agreements about 10 years ago on the 
Hiawatha and the Ottawa. We had an agreement to properly manage 
our forests. It is working. It is working well.
    Now, because of a proposed change in policy here in 
Washington, that trust of government is being, once again, 
eroded, and our economic base, our tax base, and even our job 
base would be adversely impacted by this policy.
    With that, Mr. Chairman, I yield back the balance of my 
time. I look forward to any questions you may have.
    [The prepared statement of Mr. Stupak follows:]

 Statement of Hon. Bart Stupak, a Representative in Congress from the 
                           State of Michigan

    Madame Chair, thank you for holding this hearing today and 
for allowing me the opportunity to offer my comments on this 
important issue. As I testified before this Committee last year 
on this matter, I have a number of concerns regarding the 
Forest Service's roads moratorium. This moratorium undermines 
years of hard work in our national forests and threatens forest 
health, jobs in the forest industry and our local communities.
    First, I am very concerned that the moratorium on forest 
roads will undermine the hard work by our local citizens and 
subvert agreements that have been reached in managing our 
Federal lands. In Michigan, a number of parties from all sides 
of the forestry debate spent years negotiating a management 
agreement for two national forests in my district, the Ottawa 
and Hiawatha. A moratorium on new forest roads could jeopardize 
these agreements, as well as countless others like it around 
the nation. Instead of allowing regional foresters and local 
citizens to determine how their forests should be managed, a 
bureaucratic decision has been made in Washington, DC to impose 
this moratorium on the entire nation.
    Second, this moratorium could have an adverse effect on 
forest health. Since 1991, more trees die and rot each year in 
national forests than is sold for timber. This new policy will 
only increase this trend, promoting the outbreak of disease and 
creating fuel for forest fires. The Forest Service itself 
estimates that 40 million acres of its forest are at great risk 
of being consumed by catastrophic wildfire, the majority of 
which are located in roadless areas. Without the ability to 
conduct proper forest management activities, the risk of 
disease outbreak and forest fires increases dramatically.
    Thirdly, the roads moratorium could have a significant 
impact on jobs in the forest industry. According to information 
provided by the Administration last year, more than 12,000 jobs 
could be lost as a result of this policy. In my district, which 
already suffers from high unemployment, the forest industry is 
one of my top employers. I am very concerned that this 
moratorium on road building will also cause a moratorium on 
forest industry jobs.
    In addition, this policy could harm the environment on 
state and private lands. In order to meet the terms of 
contracts, timber companies will be forced to seek alternative 
sources of wood to replace the timber that is restricted by the 
moratorium. As a result, the pressure will increase to cut more 
timber on state and private lands, possibly threatening the 
environment on these lands. Placing a blanket, national 
moratorium may stop road building on Federal lands, but in 
exchange, it could severely threaten the environment on state 
and private lands.
    Finally, the moratorium could also have a drastic effect on 
our local communities. By law, counties with national forest 
lands receive payments equaling 25 percent of gross Federal 
timber revenues. These payments are used by county governments, 
districts and school boards for education programs and road 
maintenance. The Forest Service has been reported to have 
estimated that this policy could result in the loss of $160 
million in revenue--a conservative estimate at best. At a time 
when the PILT program remains woefully underfunded, local 
communities may be the hardest hit by this moratorium.
    Madame Chair, in closing, I would like to touch upon one 
last, important point. Many of the arguments surrounding these 
discussions focus on the environmental impact and economic 
viability of timber programs. While these are certainly 
important issues, I am afraid that lost in this debate is the 
impact a roads moratorium would have on working families and 
rural communities.
    As I have stated before, our forests are a vital part of 
our economy and livelihood in my congressional district. With 
three national forests in my district, thousands of working 
families literally rely on these forests to put food on the 
table. Many people think of the timber industry as giant 
businesses that slash and clear cut forests simply for profit. 
The truth is, however, that the majority of people in the 
timber industry are family businesses--``mom and pop'' 
operations that are struggling to make ends meet and that truly 
care about our forests and environment.
    While attempts to cut forestry programs on our national 
forests may be made in the name of environmental protection or 
aimed at large corporations, that is not where their impact is 
felt the most. Not only do these cuts negatively impact forest 
health, but they also hurt our counties, our schools, our road 
programs, our emergency services, and our working families. We, 
and our forests, can ill afford to continue down this path.
    Again, thank you, Madame Chair, for holding this hearing on 
this important issue. I hope that we can reconsider this ill-
advised policy and, instead, work to address the problem of 
forest health in the future in a more effective and reasonable 
manner.

    Mr. Duncan.  Bart, I thank you very much for an excellent 
statement. I particularly appreciated your comment that the big 
companies are able to get along just fine, but it is the little 
mom-and-pop operators that are hurt.
    These environmental extremists who almost always come from 
real wealthy backgrounds hurt the poor and the working people 
worst of all because they destroy jobs, drive up prices, and 
really in the process they become the best friends that 
extremely big business has, but they hurt the small people the 
most, whether it is the small coal operators, the small farmers 
now through agricultural runoff.
    I mean, it is the small mom-and-pop, and individual 
operations in every field and industry that is being hurt the 
most. I think that is a very important point that you have 
made.
    I Chair the Aviation Subcommittee and generally with the 
members who come to testify, we just let them testify and then 
go on because we have other witnesses and we have chances to 
discuss these with members on the floor.
    If anyone has any comments or questions that you would like 
to say to Bart or ask Bart before he leaves. Mr. Peterson, do 
you have anything?
    Mr. Peterson.  What has been the reduction in the last 10 
years of board feet cut in your area?
    Mr. Stupak.  Actually, we have a management plan. As I 
said, it was a 50 year management plan. It has been reduced 
more than 50 percent. I think this year it might hit as high as 
60 percent reduction.
    So, again, that timber cutting, while it is not going on in 
National Forests, it is going on in our private forests and 
also on the State forests. So, it has been about a 60 percent 
reduction.
    Mr. Peterson.  In your area, is the National Forest the 
most mature forest anywhere?
    Mr. Stupak.  Yes, it would be. Pennsylvania is by far the 
most mature forest we have. We have actually taken tracts of 
land where we have private land owners, State forests, maybe 
Champion Paper Company, and the Federal forests.
    We have taken large tracts of land and said, let us all 
work together cooperatively to have a healthy forest, and I 
will give up some rights as a private land owner. You give up 
some rights, Forest Service. We reached these agreements.
    They are still going on, but I will tell you. There is much 
resistance to even enter into any kind of agreement with the 
Forest Service, if every year we are up here fighting these 
policies that really have economically hurt us and you cannot 
trust the government anymore.
    Mr. Peterson.  When this policy was instituted, if my 
memory is correct, it was an 18 month cooling off period, sort 
this thing out. There was no argument in my District. Is there 
an argument in your District or is it a Washington argument 
that needs the cooling off?
    Mr. Stupak.  Well, there is no argument in my District. 
They are adamantly opposed to it. Champion Paper was in 
yesterday. It was in on a tax issue, not on this. I said, I am 
going to testify tomorrow for the Interior Subcommittee.
    What about this road policy? I think I know, but are you 
not concerned about it? They said, no, we are not concerned 
about it. We have enough land in Upper Michigan, Northern 
Wisconsin, Minnesota. We can feed our mills.
    The ones that are going to be hurt are the mom-and-pop 
companies, the Mishaws, Bernawskis, St. Johns, all of the folks 
who cut timber up there. They are the ones who are going to be 
put out of business.
    Mr. Peterson.  It is raising the value of the big boy 
stakeholders. It is raising the value of their stock.
    Mr. Stupak.  Correct.
    Mr. Peterson.  So, actually it is pro-big business. It is 
anti-small business and devastating to the hunter and 
sportsman.
    Mr. Stupak.  Correct.
    Mr. Duncan.  Mr. Kind.
    Mr. Kind.  Thank you, Mr. Chairman.
    I want to welcome my friend, my neighbor to the North of 
me, Mr. Stupak, since we also have some forest land in 
Wisconsin, and Mr. Stupak has quite a bit in the Upper 
Peninsula, which is a beautiful area; not only economically, 
but for the tourist trade.
    That is one of the questions I have for you right now. Do 
you have any anecdotal evidence that you can share with the 
Subcommittee today in regards to the economic impact that the 
moratorium is already having in your Congressional District?
    To what extent is that economic impact? Is it the timber-
related industry or tourism industry that is being affected?
    Mr. Stupak.  I do not have it all together. If the 
Subcommittee would like, I would be happy to put it all 
together. Not only do we have hunting and fishing, but also 
snowmobile trails right now.
    With all of the snow we have up there, it is good. The 
total impact, again, you are just limiting access to the 
forests. If they truly are National Forests, should we all not 
enjoy them? They are not only just for the paper industry and 
the forestry industry, but also for hunters, fishermen, 
snowmobilers, skiing.
    There is a ski resort up there in the Ottawa National 
Forest. These are all accessable, as well as cross country 
skiing. So, it would probably be hard to come up with a figure, 
but we would, if you would like.
    Mr. Kind.  Has that access been limited as far as the 
snowmobile trains or skiers getting to the resorts up there?
    Mr. Stupak.  Not the skiers, because usually the downhill 
is pretty much defined. Some are cross country. Where access 
has been somewhat denied, is in the hunting area, the camping 
area, and some of those areas.
    Mr. Kind.  You mentioned the possibility of some high risk 
burn areas as a consequence of this moratorium. Is that 
accessibility more limited because of the inability to create 
the roads to get into these back areas or just road maintenance 
and repair? What is your greatest concern?
    Mr. Stupak.  It is more just getting into them. As you 
know, when you have a fire out there, you try to use your four-
wheel drives and everything else to get out there. Then you 
have to get access the nearest stream or body of water to pump 
the water towards the fire.
    To do that, you have got to use some of these pumper 
trucks. It takes a little bit more. In the areas where we had 
the problems last year, we had trouble with access to it 
because there were no roads.
    It is more of the older, more mature forests where the fuel 
is lying on the ground; the rotted trees that really spark the 
fires. Unfortunately, that is what it was. I am pleased to say 
it was not because of careless campers or things like this. It 
was the dry season. It was the lightning and things like that, 
that caused it. So, we did have trouble last year with access 
through the area because there are no roads.
    I am not saying you go put a road in all of the time. But 
if you want to try to save some timber, you are going to have 
to move pretty quickly. Yes, we do need roads.
    Mr. Kind.  I am not familiar with the anticipated fire 
conditions in the Upper Peninsula right now. Do you have that? 
Is there any anticipation at this point?
    Mr. Stupak.  Right now, we have got some snow and hopefully 
we will get some more. I know all last year, it was drought 
conditions.
    Our forest fire risk was high. One of the things I worked 
on last week was to get some of the farmers' non-cash crop, 
even the hay, drought relief. There is actually disaster relief 
for them. We are trying to move those things along.
    If you look at the snow content, we really did not have any 
snow around up there until around Christmas, which is about 2 
months late. We have had a little bit of rain. So, there is not 
that much ground covered.
    For about 6 weeks we had heavy snowfall and we have had 
nothing since then. So, we are very concerned about drought 
conditions. This year, it might be worse. The lake levels are 
way down; the Great Lakes.
    Mr. Kind.  Finally, do you have a little different 
perspective that you are bringing here today, given the fact 
that you are dealing with forests in the Upper Peninsula, east 
of the Mississippi, second and third growth forest areas, as 
opposed to some of the National Forest out West?
    Mr. Stupak.  Yes. I mean, we are second and third 
generation. If you look at it, I believe it is Region 9 in the 
Forest Service where we fall. We are considered the most 
efficient users of our forests.
    We have been cut over two or three times, as you indicated. 
So, it was important for us to enter into management plans 
early on. We have done that. Actually, the first management 
plan in the United States was found in Northern Michigan in 
managing our forests.
    We all came together. Everyone came together; 
environmentalists, the Forest Service. Everyone came together 
to put forth a way to manage our forests. By managing the 
forests, we have better forests, better valued timber, 
healthier forests.
    As I indicated in my testimony, we are now above cost, as 
opposed to a below cost forest. That is just good management 
practice. I am afraid with these policies, well, they may be 
well-intended, but you defeat the management that you have to 
have of your forests. Like anything else, like a garden, you 
have got to take care of it. You have got to weed it. You have 
got to nurture it. You have got to take care of it.
    Mr. Kind.  Before I run out of time, just one more 
question. I wish I was more versed on this subject and had the 
data in front of me.
    Did the Forest Service run any numbers, economic 
projections on the potential economic impact in breaking it 
down from the different National Forest across the country? 
Have you seen it? What would be the impact in the Upper 
Peninsula of that?
    Mr. Stupak.  I have not seen it. What we could dig up for 
the testimony we have been giving for the last couple of years 
is that approximately 12,000 jobs would be lost. I cannot tell 
you how many would be in my District.
    I can tell you that the revenue payments, again, the PILT 
payments, the 25 percent of the gross Federal timber revenues, 
that we would probably lose. It is a loss of at least $160 
million in revenue.
    That is somewhat of a conservative estimate. I probably 
could break it down by each forest, based on those figures that 
we have received from the Forest Service.
    Mr. Kind.  Thank you very much. Thank you, Mr. Chairman.
    Mr. Duncan.  Thank you, Mr. Kind. Mr. Hill.
    Mr. Hill.  Thank you very much, Mr. Chairman.
    Mr. Kind, just for the record, you may be interested to 
know, in my District 6 of 13 National Forest are affected; 42 
projects. It involves 88 miles of road, and 31 million board 
feet; about 5 percent of the planned Timber Harvest Program. 
You can get that by forest.
    Bart, I really appreciate your testimony. I am just 
curious, are there any of the areas that are being impacted in 
the forests in your District are proposed designation for 
wilderness or any special status in the future?
    Mr. Stupak.  Yes. We have a number of them. I know of at 
least two that are pending. In these management plans, we do 
have the wilderness areas set aside. We are not proposing going 
in there and building roads in there.
    Mr. Hill.  Those were already roadless areas.
    Mr. Stupak.  Those were already designated.
    Mr. Hill.  Those were already set aside.
    Mr. Stupak.  Correct.
    Mr. Hill.  In my District, what is being impacted by this 
roadless moratorium are areas that had already been determined 
as not suitable for wilderness. Is that the same as true in 
your District?
    Mr. Stupak.  That is correct.
    Mr. Hill.  In other words, what we are talking about here 
is these were forest lands that were determined to be suitable 
for multiple use, including timber harvest. Now, they are 
saying that we do not want to build roads in those areas. There 
is concern in my District that the way this is crafted, the 
consequence of this is going to be that roads are going to be 
obliterated.
    Areas are going to be added to the proposed areas. Then 
these will be redesignated as potentially suitable for 
wilderness. Do you have that kind of a concern as well?
    Mr. Stupak.  Correct; especially along the Bruell and a 
couple of the others over in the Ottawa.
    Mr. Hill.  How do you feel that, that impacts the 
collaborative processes that you have tried to promote in your 
District?
    I have tried to promote people working together to try to 
deal with the contentiousness of these timber and public 
management issues. This just seems to knock the legs from 
underneath those people that have spent years trying to 
negotiate through a collaborative process. Do you feel that 
too?
    Mr. Stupak.  Oh definitely. I mean, when you go there, I am 
going to be holding town hall meetings in the Hiawatha National 
Forest this weekend; Saturday morning and Saturday afternoon.
    I am sure this issue will come up. I have been here now for 
7 years. I have got a good working relationship with my 
community. However, it is sort of hard to believe the 
representative of the government when you enter agreements, 
and, you know, probably 7 years into the agreement, we start 
having these road moratorium proposals. We fought them on the 
floor, I think, just about every year I have been here. You 
cannot continue to say, look, we want to change the agreement.
    We all sign an agreement. We give up certain rights and 
obligations. Then the ink is not even dry, and five years later 
and now 10 years later, here you are trying to take away the 
livelihood for the forests that you promised we would have 
access to. Now we are no longer going to have access to them.
    Mr. Hill.  It may interest you to know that I have 48,000 
square miles of public lands in my District. Most of that is 
forest land. I have a pulp mill in Western Montana that is the 
second most efficient pulp mill in this company's 30-something 
pulp mills. It is the highest cost.
    Do you want to know why it is the highest cost? Because the 
cost of chips. The cost of chips in Montana is the highest. 
They are in all of their mills. We have about 5 million square 
acres, I think, of Montana that is impacted by this roadless 
area.
    None of that is determined to be suitable for future 
wilderness designation. Let me just ask you a couple of 
questions. Do you see anything positive in terms of the forest 
health of the forests in your District as a consequence of this 
moratorium?
    Do you see anything that is going to help improve the 
forest health through this moratorium?
    Mr. Stupak.  No. If anything, I think it takes away from 
it.
    Mr. Hill.  Do you see anything in this moratorium that is 
going to improve tourism, and the attraction of tourism to your 
District as a consequence of this?
    Mr. Stupak.  No.
    Mr. Hill.  Do you think that this is going to reduce the 
fire hazard that exists in the forests? Incidently, in my 
District, I have got 3 to 5 million acres that have been 
designated as high hazard, catastrophic, risk forests in my 
District.
    Mr. Stupak.  So, that would probably increase the fire 
hazard.
    Mr. Hill.  Right. How dependent are the residents in your 
District? I assume they, like in my District, they live there 
because they like the quality of life. They hunt and they fish 
on the public lands. How important are the public lands to 
recreational hunters, fishermen, and women in your District?
    Mr. Stupak.  Well, it is very important to us. My District 
is based on our natural resources, not only do we have forest 
products, but we also have mining. We have lived there. We have 
been there for generations up there.
    We have taken good care of them. We were willing to work 
with the government to enter into agreements to continue. It is 
in our best interest to take care of our forests. That is what 
we are trying to do.
    Mr. Hill.  And you have.
    Mr. Stupak.  We cannot with contradictory policy every few 
years.
    Mr. Hill.  Do you see anything in this moratorium that is 
going to make these lands more available for hunting and 
recreation?
    Mr. Stupak.  No.
    Mr. Hill.  Thank you very much. Thank you, Mr. Chairman.
    Mr. Duncan.  Thank you, Mr. Hill. Thank you, Mr. Stupak for 
being with us today.
    Before we go on to Ms. Svoboda, I do want to call on the 
Ranking Member, Mr. Smith, for any statement or comments that 
he wishes to make at this time.
    Mr. Smith.  I apologize for being late. I had another 
committee meeting, meeting at the same time. I think this is a 
very important topic. I appreciate Representative Stupak coming 
and talking about it.
    I will say at the outset that I have sort of a mixed 
opinion on roads. You know, the whole issue here is really 
logging on public lands.
    I, for one, think that we do need to continue doing that. 
Obviously, if you are going to continue doing that, you are 
going to need roads to accomplish it. I agree with much of what 
I have heard, since I arrived this morning, in terms of 
concerns about access, recreation, proper use of our wilderness 
areas, and our forest areas for both logging purposes and 
personal recreation purposes.
    I am sure it is true in Michigan and in Wisconsin, as well 
as it is in the Pacific Northwest. That is a big part of the 
reason why people want to live out there, is their access to 
those lands.
    We certainly need the timber We certainly need the jobs. 
But we have a problem that has been going merrily on for quite 
some time. I know there are a lot very bright, very capable, 
very well-meaning people who have been working on this problem 
for some time trying to come up with a solution.
    We have somewhere in the neighborhood of 383,000 miles of 
road spread out from one end of the country to the other; a lot 
of them in the Pacific Northwest, as well as in other areas.
    These roads are causing very severe environmental problems, 
in our neck of the woods. I am not familiar with elsewhere. The 
biggest parts of those problems are what it is doing to our 
fish; our salmon and trout.
    We are about to be hit with an ESA listing in the Puget 
Sound Region that is going to have a devastating impact. It is 
the first endangered species listing in a major urban-suburban 
area in the country.
    That is going to be an issue. A part of the problem is the 
roads, when they are improperly maintained start to fall apart; 
start to get into the water supply; start to cause slides and a 
variety of other problems that lead to the devastation, 
frankly, of the habitat for these fish.
    So, there are ecological problems there. We have had a 
dramatic increase in flooding in the Puget Sound Region in the 
last 10 to 20 years. There are a whole lot of things that 
caused that.
    A part of that is the fact that there are the slides and 
are the situations that are occurring with the poorly 
maintained roads. It is also potentially damaging to the water 
supply, which we are all very dependent on in a variety of 
ways.
    In the Puget Sound Region, we are dependent upon the water 
supply for power; hydroelectric. If we cannot continue to 
maintain that or if the ESA listing comes in and causes a 
problem with that, we are going to need to do something about 
it.
    The problem is maintaining the roads. I mean, I completely 
agree with you. You cannot log if you do not build roads. I 
think it is good policy to maintain them. Where is the plan to 
deal with all of the environmental and ecological damage that 
has been caused by the roads that have been abandoned and 
poorly maintained?
    I am not pointing fingers. The Forest Service and a lot of 
folks on both sides of the issue have blame for that. But we 
need something to come up with a plan for dealing with that.
    Maybe building the roads better; maintaining them better; I 
do not know. So, that is where I am coming from. I want to know 
what we are going to do about the existing roads so that we can 
deal with that.
    Mr. Kind.  Would the gentleman yield?
    Mr. Stupak.  If I may, I mentioned the 50 year plan we did 
on the Hiawatha. I went back to when we first started and the 
first year we met our target; so much board feet. Everybody was 
very happy.
    Every year since then it went down. So, I said, what is 
going on here? So, I looked at how many employees did the 
Forest Service have when we started the plan? How many 
employees did the Forest Service have after 10 years of the 
plan?
    Why have we lost about 50 percent of our board feet? Well, 
they had, I think, exactly the same number of employees, except 
maybe instead of having 32, they had 31 at the end of 10 years. 
All of the responsibility shifted from Forestry and Forest 
Management to other things like Anthropology, Historian, all 
kinds of things that did not deal with the day-to-day 
management of the natural resource being the forests.
    So, instead of having the experts who knew how to do things 
and put up a proper timber sale to make that the road--and 
remember, it is the Forest Service who decides where the road 
goes, not the logger--where this should go. We did not have the 
people there to do it any more because we were busy doing all 
of these other things.
    Mr. Kind.  Please do not misinterpret my comments. I 
realize I am the only one who is not just bashing on the 
roadless plan here. Do not misinterpret me.
    I am not saying the Forest Service is good and the logger 
is bad; not by a million years.
    Mr. Stupak.  What I am trying to say is the emphasis has 
changed from managing our forests to doing all kinds of other 
things. If you want to prevent erosion, improper roads, runoff, 
and silting of our streams, remember in my District is the Big 
Two Hearted River where Hemingway wrote about and all of these 
others.
    We have trout streams and everything else. If you would 
manage the resource and leave the people to do the managing in 
the Forest Service instead of having them do all of these other 
things that comes from Congress. Congress is just as guilty 
here of micro-managing.
    Maybe we would not have had all of these problems that we 
are seeing.
    Mr. Kind.  That would certainly help. I do not know that it 
would maintain 383,000 miles of existing roads, but it would 
certainly help.
    Mr. Hill.  Would the gentleman yield for a brief comment?
    Mr. Kind.  If I have time, sure.
    I appreciate my friend from Washington's statement. I think 
you crystallized the real issue on both sides of this 
moratorium very, very well.
    One of the great concerns and great challenges that we face 
right now in this Congress is how to deal with the repair and 
maintenance of already existing roads. I think I saw a study 
that shows that only 18 percent of the existing roads right now 
in National Forest comply with safety and environmental 
standards.
    That is a huge issue and a big challenge that we face. I do 
not think it is at all inappropriate for us to be able to step 
back and take a look at that aspect of it as well.
    I look forward to working with my friend from Michigan and 
see if we can think of some creative ways to try to get some 
more money appropriated for the repair and maintenance of roads 
that are causing, as Mr. Smith indicated, countless damage 
right now in a whole host of areas.
    Mr. Hill.  Would the gentleman yield on that point?
    Mr. Kind.  Well, actually, I am going to say something and 
then I will yield to you. I think that is absolutely true. Let 
us not pretend that the roadless policy just got developed 
because people just are not that bright.
    I think the policy was generated from the thought that, 
okay, we have got all of these roads we cannot maintain. As at 
least a starting point, let us stop building more that we 
cannot maintain.
    Now, I understand that has a lot of side effects. Because 
of those side effects, I am not sure I think it is such a 
wonderful idea. But that is a part of the thinking. If you 
cannot maintain the existing roads, you are building more that 
you will not be able to maintain and sort of creating the 
problem.
    Mr. Hill.  Would the gentleman yield?
    Mr. Kind.  I do not have any time left. So, it is up to the 
Chair to determine that.
    Mr. Hill.  I would ask consent that the gentleman have 2 
additional minutes.
    Mr. Duncan.  Go ahead, Mr. Hill.
    Mr. Hill.  This point is on roads, and hopefully we will 
get into this later on with the additional panel members. One 
of the problems here is that the Forest Service, of course, 
appropriately points out that we have this huge backlog, $8.5 
billion and a year ago it was $10 billion worth of costs to 
maintain the roads.
    That is almost all highways in the National Forest. What 
the Chief testified to a year ago, is that for less than $100 
million, less than $100 million, we could provide enough money 
to maintain all of the Forest Service roads that we are talking 
about here; the logging roads, the recreational access roads, 
which I would be willing to join with my colleagues over there, 
to work on.
    The fact of the matter is that we do not have a problem in 
terms of finding the funding to do that. What we have is a 
problem of determining whether it is the appropriate thing to 
do.
    Three hundred and eighty-three thousand miles of road 
sounds like a lot of roads, but it is not. This is a huge area. 
We have got 191 million acres of Federal lands. This is the 
public's land.
    The public does not even have access to much of it. In 
fact, my State legislature is going to be passing a bill, I 
think, to require the Forest Service, when dealing with road, 
road maintenance, and road obliteration, that it has to meet 
Montana's water quality standards.
    They have failed to do it. In fact, they are damaging 
fisheries in removing roads. It would be better to be 
maintaining them than to remove them. Hopefully, later in the 
panel, we will be able to get to the question that you have 
asked.
    Mr. Duncan.  Thank you very much. Bart, I might just say, 
since we are as I guess Mr. Smith said, this primarily goes 
back to logging.
    We were given a report yesterday that said that there is 
right now 23 billion board feet of growth each year in the 
National Forest. We have decreased, decreased, decreased, and 
decreased the amount of logging.
    So, we are now cutting 3 billion board feet, and 6 billion 
board feet are dying each year. So, we are cutting half of what 
is dying. It is amazing.
    At any rate, thank you very much for being here with us. We 
are going to get back to our other panel. I apologize, once 
again, to Congressman Marlenee, and particularly to Ms. 
Svoboda, to whom we were about to get.
    Ms. Svoboda, you may begin your testimony.

STATEMENT OF KELITA M. SVOBODA, LEGISLATIVE ASSISTANT, AMERICAN 
                    MOTORCYCLIST ASSOCIATION

    Ms. Svoboda.  Thank you.
    Chairman Duncan, members of this Subcommittee, my name is 
Kelita Svoboda. I am the Legislative Assistant for the American 
Motorcyclist Association.
    On behalf of our association's 232,000 members, I would 
like to thank you for the opportunity to be here today. I will 
summarize my written comments and ask that my entire statement 
be placed into the record.
    The AMA is not opposed to the Forest Service taking a close 
look at roads in our National Forests. With an estimated 1.7 
million recreation associated vehicles traveling forest roads 
every day, it only makes sense to work with the public to 
develop a long-term strategy for addressing recreation needs.
    However, we strongly disagree with the way the Forest 
Service has approached and implemented the interim road 
moratorium. We would like to draw your attention to a number of 
our concerns.
    We were extremely disappointed to learn that after a 
contentious 13 month period, the Forest Service will now begin 
its official moratorium to last an additional 18 months. The 
AMA finds this even more frustrating, given the fact that 
Forest Service Chief Mike Dombeck admitted to Representative 
Schaefer in testimony before this Subcommittee that the agency 
could probably devise a long-term policy without a moratorium.
    This action begs the question, if the agency admittedly 
does not need to have the moratorium, then why propose this 
policy in the first place?
    Having said that, we continue to be concerned with the 
methods used by the Forest Service to collect data from the 
public and the continued use of ill-defined terms by the 
agency.
    Open houses sponsored by the Forest Service last year were 
not public forums that allowed discussion among participants. 
Instead, many people walked into a room where they were shown a 
video tape of the proposal, told where to leave their written 
comments, and if they did speak with a staff member, found 
someone who was disinterested in what they had to say.
    Our Federal agencies should do a much better job of 
collecting public opinion. We have serious concerns over the 
Forest Service's inability to clearly define critical terms.
    For example, depending upon one's perspective and 
experience, the terms road, roadless, and others can mean any 
number of different things. It seems impossible to receive 
credible and comparable comments when the Forest Service has 
not provided the public with a precise definition of terms.
    While we appreciate the efforts of the Forest Service staff 
to include a new paragraph for definitions in the final rule, 
it fell far too short of its intention to fully clarify the 
interim rule.
    Under the Forest Service definition, ``unroaded'' areas can 
contain unclassified roads, or routes that are more than 50 
inches wide and not intended for long-term highway use. This 
definition also fits many ATV trails and connector trails used 
by off-highway motorcyclists.
    The final rule is still unclear as to whether or not the 
moratorium applies to roads that are constructed or maintained 
as recreational trails, but that are not a part of the 
transportation system.
    I can assure you that any trail is likely to be over 50 
inches wide at some point along the trail. Again, the term 
``unroaded'' could thus encompass all recreational trails as 
roads.
    For the reasons I have outlined, the Forest Service should 
alter its ``50 inch'' definition of a ``road'' to simply apply 
to vehicles over 50 inches wide; not vehicle travel ways. This 
would reduce confusion and make it clear that designated 
recreational trails are to be excluded from the road 
moratorium.
    Our members have established themselves within the outdoor 
recreation community as a responsible and environmentally 
friendly user group.
    They provide the Forest Service and other land management 
agencies extensive volunteer hours for trail maintenance, 
graffiti removal from shared public facilities, and to ensure 
that all motorized recreationists obey trail rules.
    We have worked with the Forest Service staff for decades on 
developing environmentally responsible motorized trail 
management. However, we have recently had a difficult time 
defending that relationship to our members.
    We are hopeful that the agency has learned from the 
mistrust it created with the interim moratorium, during the 
development of a long-term road policy. Any long-term strategy 
needs to avoid placing priority upon the ``aggressive 
decommissioning'' of roads.
    Not only should these decisions be made at the local level 
with public involvement, but the priorities should be on 
turning ``roads'' into trails. The Forest Service also needs to 
provide an improved forum for soliciting public input.
    A true ``town hall'' style meeting would provide the public 
an opportunity to have discussions with Forest Service 
personnel, members of the community, and would gain greater 
public support.
    Overall, it is incumbent upon the Forest Service to provide 
the same, accurate information to all forest personnel; 
especially those who have contact with the public to ensure 
that consistent policies, procedures, and definitions are being 
circulated in regard to the road moratorium.
    Again, I thank you for the opportunity to provide these 
comments. It has been a privilege to be here today. I will be 
happy to answer any questions you may have.
    [The prepared statement of Ms. Svoboda may be found at the 
end of the hearing.]
    Mr. Duncan.  Thank you very much. For the first 
questioning, I am going to yield my time to Mr. Peterson.
    Mr. Peterson.  Ron, I guess I have a question for you.
    If I remember your testimony correctly, it has been a 
little while ago. Did you sort of paint the picture that this 
is a lot bigger than about timber?
    Mr. Marlenee.  Absolutely. This is an issue of access and 
recreation on public lands. It is an issue about the future of 
hunter recreationalists. As I have stated in my testimony, 
access is the biggest problem today for sportsmen.
    Unless we provide access, the future of hunting is 
threatened. People are becoming frustrated. Instead of going 
hunting, they are going bowling.
    We need that conservation input, conservation dollars that 
come from sportsmen that enhance wildlife, add to the habitat, 
et cetera, et cetera. It is a success story, but if they 
eliminate hunters through limiting access, we are cutting off 
our nose to spite our face.
    Mr. Peterson.  But you are also limiting anybody who would 
want any nature experience that does not have the physical 
ability to be a mountain climber, hiker, or a pretty physical 
person. Would you agree with that?
    Mr. Marlenee.  I would certainly agree with that; the 
elderly, the handicapped, those who are berry pickers, those 
who go out with families.
    These are the people that use those roads. There is a 
factor of safety also involved here. I know of nobody that 
uses--very few people that use the forest, particularly in the 
West, who has not used an old road to reorient themselves and 
find their way out of the bush.
    That probably is true in the Michigan and Wisconsin area 
where it is flatter and where these roads do provide a safety 
factor for those who are out in the forest.
    Mr. Peterson.  I am going to paint you a parallel. You have 
been around awhile. You understand. The other law I am going to 
mention. The American Disabilities Act is an Act that was 
passed, I think, while your tenure was here.
    It is an Act that says that private property, private 
buildings in our communities where many of our opponents live, 
have to be accessible to all; private. Here we have public land 
that I think we are limiting to a minute percentage of those 
who could ever get out there.
    I am a hunter. I am not afraid to go 10 miles from a road, 
but I am rare. Most hunters that I know today will not go a 
mile from a road. They are afraid of getting lost. If it is any 
kind of rugged terrain at all, a mile, a mile and a half; 
someplace they have been.
    So, you are really limiting the use. Hunters who spend a 
lot of time in the woods, I think hikers are the same way, but 
you are down to the young, the strong, and the able who are not 
afraid of the wild. You have a small percentage of the 
population. Did we buy this land just for them or did we want 
families?
    The majority of Americans are approaching the senior 
citizen age. Do you want to hike 5 miles from a road if you had 
some kind of heart problems or health problems, though the 
hiking is good for you?
    Are we really shutting this down from most Americans; from 
the ability to go out there and enjoy the nature, the 
recreation, and the wildlife out there, just to view it, not 
even to hunt, but just to view it?
    Are we really not by having a huge roadless policy, that we 
are just saying for most of America, this is not for you? This 
is just for a few of us that are young, strong, and able to go 
out there.
    Mr. Marlenee.  If I may comment, sir. Yes, we are shutting 
it down. Yes, we are locking a lot of people out with a 
roadless policy; with a policy that concentrates people on a 
smaller and smaller area.
    So, we are going to eliminate the roads. Those that want to 
seek recreation, that want to hunt then are concentrated in a 
smaller and smaller area.
    The impact is greater than if you allow them to spread out 
and recreate over a larger area. As this constriction of 
opportunity occurs, a lot more people are just going to say, 
hey, it is not worth it. We are not going out. But, yes, it is 
very true that it has a severe impact on every recreation; 
particularly, families and people without means.
    If they have the means, they are wealthy, or else the 
physical means, they are out and into the roadless and 
wilderness areas. We must remember, and I have spent my life 
trying to make certain that, that auto mechanic, that person 
that has a weekend off to enjoy with his family, our public 
lands, have an opportunity and a place to go.
    Mr. Peterson.  So, it is middle class, blue collar working 
America that does not have a lot of resources and a lot of 
expensive toys who would like to go out there and spend time; 
who is not going to take his family miles from a road.
    So, we really shut-out much of America that is owned by 
America to those kinds of people who really--it is probably the 
people we created for. The wealthy have their get aways. The 
wealthy have their own estates. The wealthy have their own 
piece of the forest, quite often.
    Mr. Marlenee.  Private property.
    Mr. Peterson.  They have their own get away place in the 
mountains, in the hills, out in the vast of America. This 
public land that we bought for the average person, I think we 
are shutting out a huge percent from them ever having a chance 
to utilize.
    I guess I just find that so conflicting where we have laws 
that say public property must be open to all. Thank you.
    Mr. Duncan.  Thank you, Mr. Peterson. Mr. Smith.
    Mr. Smith.  I have no questions.
    Mr. Duncan.  All right. Mr. Hill.
    Mr. Hill.  Thank you, Mr. Chairman. Thank you both for 
being here. I appreciate it very much.
    Ron, I have to just tell you that your organization has 
more credibility, the most credibility, the greatest integrity, 
in terms of representation of sportsmen and sports women in 
this Congress and in Washington, DC.
    So, that is a bipartisan recognition. I hear that from the 
Democrat and the Republican members. Your organization provides 
the leadership in the sportsmen caucus, for conservation, 
habitat conservation, and also for constructive proposals to 
deal with endangered species on an international, as well as 
the national level.
    So, I just want to put that on the record. Your 
organization represents some people who can afford to hire the 
expensive outfitter. But your organization also represents the 
guy that wants to go hunting on the weekend.
    That is one of the reasons that I have great regard for 
your organization. One of the most troubling things in your 
testimony, and I am going to read it to you.
    I know you know that it is in here. ``The agenda of lock-
out is not new. I recall, approximately 15 years ago a 
coalition of privileged users set down on paper the goals and 
agenda they wanted to achieve on public lands.

        (1) eliminate timber harvest;
        (2) eliminate as many roads as possible;
        (3) eliminate all mechanical motorized use;
        (4) secure all of the wilderness possible;
        (5) eliminate horses;
        (6) eliminate hunting; and
        (7) establish limits of human intrusion.
    Then you go on to evidence the fact that five of those 
seven are already in some level of achievement. You know the 
situation in Montana. We are fighting on every one of those 
fronts right now.
    There are efforts to ration access to the public lands. 
There are efforts to put restrictions on horse access; not just 
on motorized vehicles, but even horses. Do you honestly believe 
that the goal here is to ultimately lock the forests up for 
recreationalists; particularly, hunting and fishing?
    Mr. Marlenee.  I think that would be an insidious ulterior 
motive. I do not believe that the professionals within the 
Forest Service, those on the ground, those up in the regional 
forests, the local Forest Service manager. I do not think that, 
that is really underlying their intent.
    We have a lot of dedicated people, as you know, that are a 
part of the community, that are a part of the recreationalists. 
However, the policies that are put forth and the mandates that 
are put out of Washington do not take that local input into 
consideration.
    So, that is why I said in here that locals who dare to 
speak out and professionals are speaking out against it. Those 
who do not have courage enough are privately saying how they 
resent the direction that the Forest Service is going from the 
mandates from Washington.
    It is unfortunate. I think the policy can be changed. When 
I listed the seven, our laws that the United States Congress 
passed have contributed to some achievement of the seven 
listed.
    The Forest Service, themselves, depending on the Chief and 
the policy put forth by the Department of Agriculture, the 
person who heads up the Forest Service Division or the 
Secretary himself, have helped to achieve to some degree almost 
every one of those seven limitations listed.
    The elimination of timber harvest, Chief Dombeck, himself, 
has said 70 percent. That is a heck of a hit on a community, or 
on a state, or on our national economy, on the national 
treasury.
    Eliminate as many roads as possible. That has been ongoing. 
I need to emphasize that. That has been ongoing with a 
galloping force in Montana. I think when Senator Burns 
inquired, there were over 160 barriers and traps put up on 
public land roads in one forest, Gallatin. This took place over 
the past 10 years.
    [Voice activation mike started fading in and out on this 
witness only.]
    Then in addition to that, I am told there were around 400 
miles of roads closed in Lemhi Forest in Idaho. The Forest 
Service needs to be forthright before they do any more closure 
of access. Tell the Subcommittee how many miles in the last 10 
years that have been closed.
    Mr. Hill.  You know, we have a road in the Flathead Forest 
that they obliterated last year. They removed, I think, 20-
something culverts. Some of those cuts were 20, 30 feet deep; a 
tremendous sedimentation problem to the streams.
    This was a trail that was completely grown over with grass 
and even had trees, full-size trees growing. It was not a road. 
It was simply a trail that sportsmen used. They could not use 
it for motorized vehicles.
    It caused great damage to extremely critical bull trout 
habitat. It could not have ever met the standards that a 
logging company would be held to if it was going to construct a 
road. That is the kind of thing that we are experiencing.
    I want to stay with the hunting point because I think it is 
extremely important. Forest management requires some timber 
harvest; does it not? I mean, in terms of maintaining a healthy 
forest, you have to have access to it.
    Timber harvest is a part of maintaining a healthy forest 
and healthy habitat for game animals: elk and deer populations. 
Would you agree with that; comment on that?
    Mr. Marlenee.  [Voice activation mike is fading in and out 
on this witness only.] Prior to ever building a road, prior to 
ever constructing a road, the Forest Service is required to 
evaluate the sensitivity--to make certain there is no erosion, 
to make certain that, that road does not impact the breeding 
ground, habitat, camping grounds, or create environmental 
damage every time they build a road.
    Now, they are saying maybe our evaluation is wrong. We 
ought to close all of those up and--maintain--reclaim those old 
roads that have reclaimed themselves. I do not think--everyone 
who has been out in the forest has come upon an old road that 
has timber on it, grass on it, and it is stabilized. I would 
suggest to go in and disrupt all of that under the guise of 
reclaiming that road is not only a waste of money, but may 
actually provide more environmental damage----
    Mr. Hill.  Thank you, Congressman.
    Thank you, Mr. Chairman.
    Mr. Duncan.  Thank you, Mr. Hill. Mr. Kind.
    Mr. Kind.  Thank you, Mr. Chairman.
    Mr. Marlenee, welcome back. We appreciate your testimony 
and your presence here today.
    I just want to see if we can clarify this debate. I know 
Mr. Peterson was talking about a lot of the recreational users, 
the weekend campers, and what not, gaining access to the roads, 
and further access to the public lands.
    I believe that only 20 percent of the already existing 
roads in our National Forest is for recreational use. By and 
large the vast majority of the roads that are in existence are 
for high clearance vehicles. Does that sound about right to 
you?
    Mr. Marlenee.  No, nearly every road on the forest is used 
for recreation.
    Mr. Kind.  The point I am just trying to make is that I 
have not seen a lot of Winabagos or campers trodding across the 
National Forest roads that are already in existence. There is 
some limited access, yes.
    By and large the vast majority of the roads are for high 
clearance vehicles and perhaps for some recreational use for 
hunting, hiking, and that type of purposes. As far as the 
actual recreational camper going out on the weekend, what we 
are talking about here really is not having too much of an 
impact on them.
    I think what the debate is all about is creating more roads 
mainly for private timber access with timber industry, and, you 
know, that is fine.
    There has to be a forest management policy. Again, it comes 
down to dollars and cents. I am troubled by the fact that only 
18 percent of the existing roads right now fall under the 
safety and environmental standards that were established.
    There is a lot of work to be done there. Also, who is going 
to pay for that? It is a tough sell for my taxpayers back in 
Western Wisconsin that we should be creating new roads in the 
National Forest lands mainly to be used for private timber 
interests.
    I think that is just the fundamental debate that we are 
going to continue to have here in these halls for some time to 
come. Also, given the fact that we have got 383,000 miles of 
roads right now already existing in our National Forest lands.
    You can go around the globe 15 times. I do not think it is 
all that unreasonable just to step back, take a breath, and see 
where we are going as far as the creation of new roads and how 
they are going to be maintained and who is going to pay for it.
    I am a hunter. I like to get out and hunt. I know how 
valuable it is to gain access to public lands. I grew up in a 
hunting family. You have a very valid point.
    The question I want to pose to you is, are there any 
studies or any data that we can point to that shows a serious 
concern in regard to this moratorium over species pressure, 
over population, and what that might do to hurt management, for 
instance?
    Mr. Marlenee.  Most recreation is not done with a camper, 
Winabago or otherwise. Most sportsmen and a majority of 
recreationists prefer primitive roads, not all-weather through 
parks. The contention by the Forest Service that they must 
maintain these roads to a high degree of safety and ease of 
travel is bogus. Perhaps they want to elevate costs.
    We are not necessarily addressing the moratorium. We are 
not addressing the issue of building new roads. We are 
addressing our concern that there be no access loss.
    Mr. Kind.  I have not had a chance to inquire on the State 
level as far as the State agencies. Are you aware of any State 
agencies right now that are conducting some studies on the 
impact that the moratorium may have on herd management or 
species pressure in the public lands?
    Mr. Marlenee.  [Voice activation mike fading in and out on 
this witness only.]
    Mr. Kind.  You are just not aware of any.
    Mr. Peterson.  Would the gentleman yield?
    Mr. Kind.  Sure. I would be happy to yield.
    Mr. Peterson.  I cannot name a study, but I was in State 
government for 19 years. It was an ongoing problem to get the 
deer heard trimmed on the Allegheny National Forest because 
hunters will not hunt very far from a road today. They are just 
not comfortable out that far.
    So, it was an ongoing problem of how we get the hunters in 
where the deer population is too heavy and where the deer 
population us having a damaging effect on the environment 
because there are too many of them; regeneration of species and 
so forth.
    So, it was a problem most of the time I was in State 
government. We could not get the hunters to get out there. 
There is not access to the forest. You have to go a long ways 
from a road to hunt there. You are in rough terrain and hunters 
are afraid of it.
    Mr. Kind.  I am reclaiming my time.
    I appreciate your comments because we have experienced 
similar problems in the State of Wisconsin with regard to herd 
management and what not, but who knows.
    Now, with the cutting edge technology that we see today, 
Mr. Chairman, with satellites and location finders, maybe we 
hunters will have the technology and the confidence to venture 
a little further from the road than they have had in the past.
    Thank you. That is all I have.
    Mr. Hill.  Would the gentleman yield for just a moment?
    Mr. Kind.  Sure.
    Mr. Hill.  If you would, I think it is important to note 
that I think the Forest Service has indicated that 93 percent 
of the use of the forest roads is for other than timber 
harvest.
    About 7 percent of the use of these roads is for timber 
harvest. The rest of it is for recreational use, for fire 
protection use, for maintaining the health of the forest.
    There is kind of a view out there that the construction of 
these roads is some sort of a subsidy for the purpose of 
protecting the timber companies.
    That is simply not true. In fact, we eliminated the Road 
Credit Program, you may recall, in the Omnibus bill last year 
to eliminate any semblance of any kind of subsidy for the 
construction of the roads.
    The point is, in fact the Forest Service in announcing this 
moratorium has indicated that the deterioration of these roads 
is substantially a consequence of increased recreational use; 
not increased timber company use, but increased recreational 
use.
    That is the issue that we are kind of talking about here. 
Thank you for yielding.
    Mr. Duncan.  Thank you, Mr. Kind.
    You know, I think it was Mr. Hill who mentioned earlier the 
191 million acres that the Forest Service controls. I am not 
sure if some people really realize how much land that is.
    The Great Smokey Mountains National Park, most of which is 
in my District, is 565,000 acres. So, what we are talking about 
here is more than 300 Great Smokey Mountain National Parks all 
put together.
    That does not count the land that the BLM has. That does 
not count the land that the National Park Service has. In fact, 
I read recently that the Federal Government now owns over 30 
percent of the land in this country.
    State and local governments and quasi-governmental units 
own another 20 percent. There was an interesting column on this 
in the Washington Times just a couple of days ago. This is by 
Joseph Perkins, a columnist for the San Diego Union Tribune.
    ``Of all of the land in the United States, less than 5 
percent, repeat, less than 5 percent, has been developed. 
Indeed, according to a recent study by Samuel Staley for the 
Reason Public Policy Institutes.
    Seventy-five percent of the U.S. population, some 200 
million men, women, and children live on just 3.5 percent of 
the country's land area.
    Moreover, Mr. Staley notes in more than 3/4 of the States, 
including California, more than 90 percent of the land is 
devoted to rural uses, including parks, wildlife preservation, 
forests, and pasture.''
    I just think those are some pretty interesting statistics 
there. Mr. Marlenee, you said that there has not been much 
public input. You made reference to that. I would like to ask 
Ms. Svoboda about that.
    Has your group and other groups such as yours been included 
or consulted? Has there been much public participation? I know 
there has been some kind of focus groups, but I would just like 
to hear your comments on that.
    Ms. Svoboda.  Yes, we have been involved. We were involved 
certainly with the interim road moratorium in the comments that 
we provided to the Forest Service, to this Subcommittee and to 
a number of different areas.
    In regard to the focus groups, those are what the Forest 
Service is trying to do to gain public input on their long-term 
road strategy. We do have some minor concerns about that.
    We are thankful that we have been invited. Our association 
has been invited to attend two of those focus group meetings; 
one in California and one in Georgia that is going on this 
week.
    Our concern is not so much that the Forest Service is 
trying to do these focus groups, which will allow a small group 
of people to get together including recreationists, 
conservationists, and industry folks at more or less an equal 
level. But we want to make sure that before they provide any 
long-term strategy, that there is appropriate and adequate 
public comment from all users, not just the select few interest 
groups that the Forest Service has invited to attend.
    Mr. Duncan.  Mr. Marlenee, any comments on that?
    Mr. Marlenee.  The participation basically came about when 
they developed the Forest Service plan that Mr. Stupak alluded 
to in his testimony.
    So, the Forest Service took comments at that time. 
Agreements were reached. With regard to the new moratorium, 
Congressman Peterson tried to address that, but I know of 
little, if any, public input that took place with regard to the 
rehabilitation, closure, et cetera of roads.
    With regard to the road closures that have already taken 
place, the hundreds and hundreds of miles of public land access 
that has been closed, there has been some hearings, but they 
have been very, very limited in access to those hearings by 
those who use those roads.
    It is sometimes virtually impossible. The Forest Service 
needs to do a better job of seeing what the local people, the 
impact on the local sportsmen and recreational users, will be.
    Mr. Duncan.  You know, there is so much interest in these 
types of things. I mean, this is not the first time roads have 
been closed. I remember in 1995, I also have in my District 
much of the Cherokee National Forest.
    By the way, there was an article in the Knoxville paper a 
few weeks ago which said that Tennessee has a total land area, 
and Tennessee is a pretty big State, when you go all the way 
across.
    It has a total land area of 26 million acres and that half 
of it is in forest. Then in really every State, the amount of 
forest land, the number of trees has gone way up in the last 50 
years.
    Yet, I bet if you go to almost any elementary school in 
this country and ask the young people has the number of trees 
gone up in the last 50 years or gone down? They would probably 
all say it has gone down because there has been such distortion 
and propaganda, false propaganda, out there on some of these 
issues.
    I remember in 1995, the Forest Service was about to close 
some roads leading to cemeteries and roads that hunters had 
used. I held a town meeting about that and it was on very short 
notice.
    It was at not a particularly good time. We had to do it at 
6 p.m. one night. Over 600 people turned out. It shocked me. I 
mean, you just do not get that many people coming out for that 
type of thing.
    I know the briefing paper we have said that the Forest 
Service has said that they have 1.7 million vehicles per day on 
these roads.
    [The Hearing Briefing Paper referred to follows:]

                             BRIEFING PAPER

SUMMARY

    The purpose of this hearing is to review the Forest 
Service's progress in developing a long-term road management 
policy, initiated in January, 1998, and the agency's 18-month 
moratorium on construction and reconstruction of roads in 
roadless areas. The moratorium was first announced in January, 
1998 (concurrent with the proposal to develop a new long-term 
road policy), and a ``final interim rule'' was published Feb. 
11, 1999, taking effect March 1, 1999.
BACKGROUND

    On January 28, 1998, the Forest Service published an 
Advanced Notice of Proposed Rulemaking to revise the 
regulations concerning the management of the National Forest 
System transportation system (Federal Register Vol. 63, Number 
18). The Forest Service stated at the time that the inventoried 
road system includes an estimated 373,000 miles of forest roads 
that provide access for recreation use (1.7 million vehicles 
per day); agency administrative use (9,000 vehicles daily); and 
resource development (15,000 vehicles per day). The agency also 
estimated there are 60,000 miles of non-system (or 
``unclassified'') roads that are not managed or maintained by 
the agency. When the interim rule was published in February 
1999, the agency revised its estimate of the inventoried road 
system to 383,000 miles, and it reduced the amount of 
unclassified roads to 52,000 miles.
    In recent years recreation use has increased and resource 
development use has decreased significantly. In the past, 
resource commodity users performed a large amount of the road 
maintenance, concurrent with their use. With the reduced level 
of commercial use, and consequently less road maintenance 
performed by the users, the Forest Service has had insufficient 
funds to maintain the road system on its own. As a result, the 
Forest Service estimated last year that only 40 percent of the 
inventoried roads are fully maintained to the planned safety 
and environmental standards for which they were designed. The 
agency estimates its backlog of road maintenance and 
reconstruction needs is at least $8.5 billion.

ANALYSIS

    The National Forest System covers 192 million acres of 
land. Within this land base, 35 million acres are designated as 
wilderness, and an additional 6 million acres are designated as 
proposed wilderness in the current forest plans. No road 
building may occur on these lands, even without the agency's 
18-month moratorium.
    Another 33 million acres of National Forest land is 
unroaded in blocks of 5,000 acres or more, for which current 
forest plan direction proposes management that could include 
building roads. The interim rule prohibits any road 
construction on these lands and on blocks of roadless land 
1,000 acres or more in size that are adjacent to inventoried 
roadless areas, wild segments of the Wild and Scenic River 
System, wilderness areas, or other Federal roadless areas of 
5,000 acres or more. The Forest Service has not estimated the 
total number of acres affected by the moratorium.
    The agency did complete an assessment of the impacts of its 
road moratorium. However, it estimated impacts based only on 
planned activities that must be canceled as a result of the 
moratorium. It did not estimate the effect of deferring any 
other activities that require road access which could not occur 
over the next 18 months, nor did it account for delays in 
planning those activities if they are eventually allowed to 
occur. Thus, many believe the impact assessment significantly 
underestimates the real impact of the moratorium.
    Finally, the agency announced more than thirteen months ago 
that the proposed moratorium would last 18 months or until the 
long term road management policy was completed, whichever was 
sooner. Although over a year has elapsed for work on the long-
term policy, the 18-month clock for the moratorium has just 
begun, with adoption of the interim rule last month.

WITNESSES: A witness list is attached.

STAFF CONTACT: Anne Heissenbuttel, Subcommittee on Forests and 
Forest Health, extension 5-0691.

    Mr. Duncan.  Do you have any rough guess as to how many 
millions of recreational users there are in these National 
Forest? I am not a hunter. I do not even know how many millions 
of people might be hunters. You are talking about an awful lot 
of people; are you not?
    Mr. Marlenee.  Mr. Chairman, I think the Forest Service 
does have those figures and can provide them. I know I have 
seen them in the past; how many recreational days of forest use 
there are.
    So, I think that figure is already compiled. One last 
thing, if I might, that I would like to bring to your 
attention.
    Mr. Duncan.  Sure.
    Mr. Marlenee.  I have secured a rumor from two sources, 
reliable sources, that the Forest Service is trying out a new 
policy, if trying out is the right word, where public lands, 
and this may be other public lands also, where public lands are 
closed, unless there is a notice posted that they are otherwise 
open.
    I would, if I may suggest, Mr. Chairman, I think we deserve 
to know if the Forest Service is in fact moving in that 
direction. It is an insidious, insidious direction for them to 
take. To just say all public lands are closed, unless they are 
posted open. I find that alarming. I hope that that can be put 
to rest.
    Are they doing it? Yes or no? We do not know. But I do have 
rumor from a couple of sources that, that is the case.
    Mr. Duncan.  Well, as Mr. Peterson said, we need to make 
sure that public lands remain public lands and are not limited 
just to Federal Government bureaucrats, or the rich elitist, or 
environmental extremists.
    It is becoming a very, very serious and controversial issue 
in this country. I have been filling in for Mrs. Chenoweth, who 
became ill. I have got to go to another meeting.
    Mr. Peterson, can you take over from here? Well, go ahead 
and call on Mr. Udall for any comments or questions at this 
time.
    Mr. Udall of Colorado.  Thank you, Mr. Chairman.
    Panel, thank you for being here with us today. I missed 
some of the initial presentations you made. I look forward to 
reading over the materials that you have shared with us.
    I just want to make a couple of comments. Unfortunately, 
Congressman Marlenee knows that I have got another meeting that 
I have got to go off to. So, I am not going to be able to have 
a chance to hear the Forest Service panel.
    I do think my colleague, Mr. Kind, raised some important 
questions and points, particularly on what we are doing on the 
backs of our taxpayers. I know in Colorado, in my District, I 
hear general support for the moratorium, with the understanding 
that it includes the building of new roads.
    That existing roads are maintained in an opened fashion 
right now until we get our hands around this particular 
situation. I think that makes some pretty good sense.
    With regards to the rumor about the closure of public 
lands, I think in some cases that may make sense, particularly 
where we are getting new roads created without the studies that 
you have referenced and without the environmental impact 
overview.
    It is the other roads that are being created by use as 
opposed to by decision that this is a good place to put a road. 
So, I hope the Forest Service panel will address some of these 
questions, particularly this creation of new roads through 
unauthorized, off-road use.
    I would also point out that in our area where we had forest 
plans in place, the Arapaho Roosevelt forest, which is a part 
of my District, that plan actually supersedes the moratorium 
because that plan has been put in place.
    So, I think there has been some flexibility applied. I 
think we ought to move ahead and see where this all leads us. 
Thank you, Mr. Chairman.
    Mr. Peterson.  [presiding] We want to thank both of our 
panelists for their fine testimony and their willingness to 
take questions today. Thank you both very much.
    Mr. Marlenee.  Thank you, Mr. Chairman.
    Ms. Svoboda.  Thank you.
    Mr. Peterson.  As they are departing, we will ask Ron 
Stewart the Deputy Chief of the U.S. Forest Service, 
accompanied by Mr. Tom Mills, Director of the Pacific Northwest 
Research Station, to come to the table.
    We welcome you. Please proceed whenever you are ready.

  STATEMENT OF RON STEWART, DEPUTY CHIEF, U.S. FOREST SERVICE

    Mr. Stewart.  Good morning, Mr. Chairman and members of the 
Subcommittee. I really am pleased to be here this morning to 
discuss the status of the Forest Service Revised Road Policy.
    As you indicated, I am Ron Stewart. I am the Deputy Chief 
for Programs and Legislation for the Forest Service. I am 
accompanied this morning by Dr. Tom Mills who is Director of 
the Pacific Northwest Research Station.
    I also brought with me Rhey Solomon from the Ecosystem 
Management Staff; Bill Timko from the Forest Management Staff; 
and John Bell from the Engineering Staff; all of the Forest 
Service.
    We are available to answer specific technical questions to 
try to make this as most useful to all of you as possible. With 
your permission, I would like to summarize my testimony and 
submit the full testimony for the record.
    I would like to start with three key points. Then, with 
your permission, I would like to elaborate on those. That is 
that the first point is the Forest Service road system is 
essential to rural communities for public purposes and for 
necessary management activities.
    I think our previous panel certainly indicated the 
importance of that road system. The second point is that the 
existing system was designed to meet yesterday's needs.
    Finally, a comprehensive look at the transportation system 
in light of today's science and tomorrow's needs is absolutely 
critical.
    To expand on the first point that this road system is 
essential to rural communities, for public purposes, and for 
necessary management activities, I would like to say that 
forest roads have become an essential part of the 
transportation in many rural parts of the country.
    They help to meet recreational demands, while providing 
economic opportunities by facilitating the removal of 
commodities from the National Forest. The benefits of forest 
roads are many.
    Also, we must recognize that roads create many ecological 
impacts on our watersheds. As emphasized, in the Forest Service 
natural resource agenda, we need to maintain a road system to 
provide public access, while reducing and reversing the 
environmental impacts.
    The revised road policy is an essential part in 
implementing that agenda. The second point, that is the 
existing system was designed to meet yesterday's needs.
    I think it is important to recognize that the current road 
system was developed to meet the transportation needs of the 
1960s and 1970s.
    It does not reflect the needs of today. For example, timber 
hauling has decreased over time, while recreation traffic has 
grown dramatically. Today, there are about 1.7 million 
recreation vehicles per day on Forest Service roads, and only 
about 15,000 timber harvest vehicles per day.
    Timber-related traffic has dropped to about 1950 levels, 
and represents less than 1 percent of all forest road use. It 
is literally true that yesterday's logging trucks have been 
replaced with today's mail trucks, school buses, and family 
station wagons.
    The current road managed system represents a significant 
long-term financial commitment. As long as a road exist, it 
must be maintained. The National Forest road system has 383,000 
miles of classified roads, and about 52,000 miles of 
unclassified roads.
    Classified roads are those roads that were constructed or 
maintained for long-term highway vehicle use. Unclassified 
roads, in contrast, are temporary roads or short-term roads 
that are associated with fire suppression, timber harvest, oil, 
gas, or mineral activities, as well as travel ways resulting 
from off-road vehicle use.
    In the past, most of the reconstruction and construction 
work of our road system was accomplished by purchasers of 
National Forest timber.
    For example, in 1996, planned construction was 38 miles 
from appropriated funds, and 441 from timber purchasers. This 
ratio varies from year-to-year.
    For both reconstruction and construction, work done by 
timber purchasers far exceeds the work done by appropriated 
funds. Even if harvest levels significantly increased from 
their current levels in the future, it would not begin to 
address the maintenance and the construction needs on the 
383,000 miles.
    From 1990 to 1998, the Forest Service has closed 17,715 
miles of road. But more importantly, over 9,000 miles of road 
have been converted from high standard roads, designed for 
passenger car traffic, to low standard roads maintained for 
high clearance vehicles, such as pick-up trucks.
    While the focus of discussion, so far, has been on the one 
time suspension of 368 miles of roads that we will delay or not 
construct during the suspension period, primary access to our 
National Forest by passengers is being reduced by about 1,000 
miles per year.
    Based on information we are preparing for a report to 
Congress on Forest Service maintenance and improvement needs, 
we have a deferred maintenance and capital improvement needs 
backlog of about $8.4 billion and it is growing.
    Currently, we receive funding for about 18 percent of the 
need annually to maintain roads to plan service, safety, and 
environmental standards. Even with the significant increase in 
our budget request for fiscal year 2000, funding does not 
address the annual maintenance needs or begin to address the 
backlog. It is fiscally and environmentally irresponsible to 
continue to build roads, when our current road system is in 
such disrepair and decline.
    Without adequate funding, the system will continue to 
decline, causing environmental damage and posing human safety 
risks. Finally, a comprehensive look at our transportation 
system is needed in light of today's science and tomorrow's 
needs.
    To accomplish our objective, we are following a three-step 
process. That includes the temporary suspension that was 
discussed, and has been most of the focus of energy so far.
    We also are working on road analysis procedure. That will 
include a new science-based multi-scale landscape analysis. It 
will include a process to help land managers make informed land 
management decisions about the management of roads.
    It will provide an expansion and extension of previous road 
analysis tools and techniques. During the last 12 months, the 
Forest Service has field tested this draft procedure on six 
National Forests.
    It is now undergoing a rigorous scientific peer and 
technical review. We expect to have that road analysis 
procedure available during this fiscal year. The third step in 
our policy is to develop revised regulations and direction. The 
Forest Service is developing new regulations and direction to 
provide an environmentally sound road system that meets the 
needs of local people.
    These will update current road regulations and directions 
to provide the minimum forest road system that best serves the 
management objectives and public uses of National Forest and 
grasslands.
    It will ensure that the road system provides for safe 
public use, environmentally affordable and efficient 
management, and is environmentally sound.
    It will ensure that road management decisions use a 
science-based analysis process to fully evaluate benefits and 
impacts of road systems within both unroaded and already roaded 
portions of the landscape.
    Finally, that it ensures that new construction does not 
compromise socially and ecologically important values of 
unroaded areas.
    In summary, while the focus of the debate continues to be 
on the temporary suspension, delaying or eliminating 
construction of 368 miles of new roads in roadless areas over 
the next 18 months, we must not lose sight of the larger 
picture.
    Over that same 18 month period, approximately 1,300 miles 
of roads will become inaccessible to passenger vehicles because 
we cannot provide proper maintenance and assure public safety. 
This is the real access issue. To get on top of this issue, we 
first need a comprehensive, scientifically-based, consistent 
frame work for analyzing our transportation system needs, and 
deciding when, where, and how we will build roads in the 
future.
    Second, we need to apply this frame work to decision 
making. The actual decision on when, where, how to build, or 
decommission roads will continue to be made with public 
involvement at the local level, and usually through the forest 
land and resource management planning process.
    Finally, we need to find ways to adequately fund and reduce 
our enormous backlog in deferred maintenance and capital 
improvement needs.
    This concludes my statement. We would be happy to answer 
any questions that you or members of the Subcommittee may have.
    [The prepared statement of Mr. Stewart may be found at the 
end of the hearing.]
    Mr. Peterson.  Thank you, Mr. Stewart.
    Of the 383,000 miles of road in the system, what percentage 
of those are used by a lot of people like hunters, fishermen, 
campers, hikers, bird watchers?
    Mr. Stewart.  This seems to be another example, Mr. 
Chairman, of the 80/20 rule. About 20 percent of that road 
system has about 80 percent of the use. That is generally what 
we consider to be our primary, I want to say it is the arterial 
collector road system.
    Mr. Peterson.  So, 76,000 or 77,000 miles of the roads are 
the ones that have pretty much become community roads that the 
community uses.
    Mr. Stewart.  They are a vital part.
    Mr. Peterson.  Township people, local people, local folks. 
Okay. What percentage of your backlog is on those roads? Are 
they not the most costly ones?
    I know townships are always in trouble with their improved 
roads. They are not in trouble fixing a dirt road, putting in 
new pipes, and getting the ditched cleaned. It is their more 
improved roads where all of their costs are.
    Mr. Stewart.  We have that number. We are digging it out, 
with your patience.
    Mr. Peterson.  What percentage of your backlog is bridges?
    Mr. Stewart.  This is John Bell from our Engineering Staff. 
He has got the facts and figures on our road systems. So, it 
would be more useful, rather than for him to feed me 
information, for him to go ahead and discuss this with you.
    Mr. Bell.  I have so many facts and figures that it is hard 
to put a finger on an exact box immediately, Mr. Chairman.
    Mr. Peterson.  Okay. You heard my question.
    Mr. Bell.  Yes, I did. Our passenger car maintenance roads, 
maintenance levels 3, 4, and 5; the simple answer is it is 
about half the backlog is on them. It is slightly more.
    Mr. Peterson.  Because it is the most improved roads you 
have and it is the most costly to fix.
    Mr. Bell.  They were the most expensive roads to construct 
initially and require the most maintenance. On your separate 
question on bridges, out of the 8.3 billion, the bridge 
program's backlog is about 100, make it about $200 million. So, 
it is 2.5 to 3 percent of the total backlog.
    Mr. Peterson.  I am going to share with you my thoughts. If 
you agree with me, fine. If you do not, fine. I think you are 
in a no-win position. Since I have been here, which is a short 
time, there is huge resistance towards your roads.
    I mean, the same people who want these roadless areas, want 
no roads, also do not want your current roads to be fixed. I 
mean, they are the same people who are trying to cut your road 
budget. Because it is all, I guess, figured to be that if we do 
not have roads in the forests, we cannot cut timber, and we 
will get our ultimate goal, or whatever that is, or we will not 
have people out there.
    How do we ever get out of this problem of having roads that 
accommodate our communities that you are in for school buses, 
general recreationalists, and so forth, and how do we have a 
budget to do that, if the same people, the same groups that are 
very successful, stop us from spending money on roads period?
    Then we allow the roads to deteriorate, and they become an 
environmental hazard. I have heard that today a number of 
times, environmental hazard, because we have not fixed them. 
But we will not appropriate the money to fix them because you 
might do something with them that we do not want done.
    So, how do you win?
    Mr. Stewart.  Mr. Chairman, if I could take a shot at that. 
I have put a fair amount of thought into that question. 
Certainly, the Forest Service Roads Program has been very 
controversial in Congress.
    As you know, we almost lost the entire program over the 
last couple of Congresses. It is always going to be a matter of 
great debate. A part of what we are trying to do is shift that 
debate. That is a part of the reason or focus of my testimony 
this morning.
    While everybody is kind of focused in on this interim 
policy that affects 3 or 4 percent of the entire road 
construction during this next 18 months, we are ignoring what 
is going on, on the 383,000 miles, which is where a lot of the 
real issue in the long-term rest.
    My question is how do we address that? A part of it is I 
think understanding what the problem is. Until recently, as 
recently as January, we have not had a good handle on what the 
problem is.
    We have had a lot of estimates of the construction, 
reconstruction, and maintenance backlog needs. But they have 
not been the sort of thing that anybody would have wanted to 
lay their life on the line to defend because frankly they were 
just that. They were estimates.
    At the request of Congress, we had to take a good look at 
our infrastructure needs. That report is--I do not know if it 
has actually gone forward to Congress yet, but it will soon.
    That is where this $8.4 billion comes from. It kind of 
reminds me of that story about the little dog chasing the 
truck. What is it going to do when it catches up with it? Now 
that we have got the number and it is out on the table, I think 
it is the number that was scaring us all.
    That once it is identified, now it is an issue of how we 
all deal with it. I think a part of that answer is going to be 
this long-term transportation analysis process that does not 
make any decisions nationally itself. That will still be done 
through the forest planning process.
    We will provide a consistent way of deciding how we are 
going to deal with that road system and focus our energy then 
on the highest priority needs for construction, reconstruction, 
and then decommissioning.
    So, I think that the answer is first understanding the 
problem; having a process for prioritizing it. I think that our 
long-term policy will do that. Once we have done that, to work 
with you all and our partners to find ways to fund the road 
needs.
    Some of that is going to be converting them to trails. 
There are, often times, willing partners to maintain those 
trails, as opposed to trying to maintain an entire road system.
    Mr. Peterson.  That is really what a lot of them are today. 
The people who talked this morning of roads with trees growing 
in the middle of them. That is a trail. That is not a road.
    Mr. Stewart.  Exactly.
    Mr. Peterson.  The road system that has become a part of 
the community ought to be separated. They are used by school 
buses and they are used generally by the community that lives 
there and the people who come to visit ought to be separated 
into a certain standard of road and maybe get it out of this 
controversy. You have opponents of spending a dime on your 
roads.
    It is not well-thought out, but it is out there. They are 
effective. They are powerful. They are winning. They have been 
winning since I have been here.
    Mr. Stewart.  One of the things that we have been looking 
at is the Forest Service has never declared its roads to be 
public roads. I do not know what the history of that is, but we 
never have for one reason or another.
    That has not allowed us to be competitive for the highway 
trust funds. One of the things would be to declare those parts 
that are a part of those arterial collector roads would be to 
declare those to be public roads.
    Thereby make them available for the trust fund monies. That 
is certainly something that we want to consider and discuss 
with Congress during future amendments or dealing with the next 
T or whatever it is called in the future. We certainly see that 
as one possibility for dealing with those heavily used sort of 
essential local roads.
    Mr. Peterson.  Mr. Bell, would you submit the data you have 
with you for the record?
    Mr. Bell.  Mr. Chairman, if it would be easier, it will be 
a part of the report. What I have, well, yes we can submit it, 
but it----
    Mr. Peterson.  It will not make much sense?
    Mr. Bell.  Well, it is just a spreadsheet with a lot of 
numbers that require a 30 page protocol of definitions.
    Mr. Peterson.  Okay.
    Mr. Bell.  The report that Mr. Stewart mentioned is on 
total deferred maintenance backlog. It was required by 
Committee language in our appropriations bill. It includes the 
other infrastructure, not just the roads.
    There is a summary of that information available to you 
already, as a special emphasis item that was a part of our 
fiscal year 2000 budget justification. It is already on the 
Hill.
    Mr. Peterson.  Thank you.
    Mr. Stewart.  If that would be useful, we can provide that 
immediately.
    Mr. Peterson.  Yes, that would be fine.
    [The information referred to may be found at the end of the 
hearing.]
    Mr. Peterson.  The gentleman from Washington, Mr. Smith.
    Mr. Smith.  I want to let Mr. Kind go first.
    Mr. Peterson.  The gentleman from Wisconsin, Mr. Kind.
    Mr. Kind.  Thank you, Mr. Chairman.
    I thank my friend from Washington for letting me bump ahead 
of him. I thank Mr. Stewart and the rest of your group for 
coming here and testifying today.
    I just want to clarify one thing in regards to the 
availability of public comment or information from anyone who 
is interested on this moratorium before you announce it. I 
imagine under any rulemaking procedure, there is a period of 
public comment and hearings, public hearings, that are held.
    Did you also have a Web site that was available, e-mail 
access, and other modes of being able to communicate to you 
before the actual announcement? Could you clarify that for the 
record?
    Mr. Stewart.  I would be glad to. In fact, I will ask Ray 
Solomon who was intimately involved in that process to come up 
and fill in some details.
    In general, it involved town hall kinds of meetings. It 
involved a Web site. It involved some briefings on the Hill. It 
also had an open comment period.
    During that period, we received something like 53,000 
comments that needed to be analyzed before we issued the final 
decision.
    I will also say that as we go through the process for the 
long-term policy, we will go through a similar effort. That is 
beginning, as was mentioned earlier, with some focus groups to 
sort of define what some of the issues are that need to be 
addressed in that longer term policy.
    That will include public comment and other opportunities 
for the public to provide input to it.
    Mr. Kind.  I guess at least for my satisfaction, we do not 
need to go into too much of the detail, but it is safe to 
assume that if someone is interested in this topic, and that 
they have access, and can submit their opinions and comments 
during the course of not only the announcement regarding the 
moratorium, but in future policy changes.
    Mr. Solomon.  That is correct. During the initial comment 
period on the interim, of course, at some point we had to close 
off the comments that we considered during the interim.
    We have maintained an e-mail site, as well as a Web Page. 
People who are commenting and who continue to comment, we have 
taken those comments and added them to the long-term comment 
record. So, that record is continually being built and will be 
input or analyzed as a part of the long-term policy.
    Mr. Kind.  Let me ask you an unrelated subject now. Based 
on your past experience involving this issue, especially road 
building in National Forest lands; the great controversy that 
we have right now and the brouhaha, I think, the reason why we 
are having a hearing today.
    In your opinion, is it more out of a concern about 
recreational access to these public lands or is it timber 
access?
    Mr. Stewart.  I will speak from my personal experience, 
which I think is most useful and probably illustrative of the 
issue. I was Regional Forester in California. Certainly, most 
of the concern about accessing unroaded areas was over timber 
harvest.
    Of course, a lot of that had associated road activity. From 
a practical standpoint, once you decide to build the road, it 
does change the character of a roadless area. So, therefore, it 
has consequences that need to be carefully considered.
    So, I would say most of the controversy I was familiar with 
was related to the timber program, but it was hard to separate 
that from the associated road building which had impacts beyond 
a particular timber sale.
    Mr. Kind.  We have heard testimony today in regards to 
roughly 52,000 miles of unauthorized roads for off-road 
recreation. How big a problem does that pose as far as your 
Administration and management of these public lands in regards 
to safety and environmental concerns?
    Mr. Stewart.  The 52,000 miles of unclassified roads 
includes a component that is, say, off-road vehicle use where 
no road was designed, but somebody has headed off country and 
others have followed.
    The majority of that, I would say are roads that were put 
in for temporary access for specific things. It might be for a 
fire. It might have been for a timber sale or something like 
that.
    In fact, I do not know if we have a figure of the 
percentage of the maintenance issues that would be on those. 
Many of those in the long-term probably will end up being put 
to bed.
    They were intended to be temporary roads, not permanent 
roads. However, an analysis of the long-term transportation 
system may convert some of them to be permanent.
    Mr. Kind.  Okay, thank you. Thank you again for your 
presence and testimony. Thank you, Mr. Chairman.
    Mr. Peterson.  The gentleman from Montana, Mr. Hill.
    Mr. Hill.  Thank you, Mr. Chairman.
    I would like to thank the panelists for being here. I am a 
little confused a little bit about the terms that are being 
used for roads here. I just kind of want to go through this.
    In the past, the Forest Service has identified the 366,000 
miles of roads, which I believe you are now calling classified 
roads, as roads that were constructed to standards. Is there 
some change here now? Then you go on to say unclassified roads, 
the 52,000 miles of roads that you used to refer to as ghost 
roads. Am I correct in that?
    Mr. Stewart.  Some of those were so-called ghost roads, 
yes, in that 52,000 miles.
    Mr. Hill.  What happened to the rest of the ghost roads 
then? If before you said there were 52,000 miles of ghost 
roads, there originally were not 52,000 miles of ghost roads?
    Mr. Stewart.  The numbers that we were originally using 
were estimates based on the experience in one region which were 
extrapolated nationally. In fact, we ended up doing actually a 
national sample. Those numbers did get adjusted.
    Mr. Hill.  Let me ask about that because my time is limited 
here. The point I want to get at here is that you have 
classified these 52,000 miles of roads as ghost roads, trails 
that were created kind of by accident.
    You are now saying that some of those were purposely 
constructed, either for timber sales, for fire suppression, or 
other purposes. Is that correct?
    Mr. Stewart.  Certainly in that unclassified 52,000----
    Mr. Hill.  What portion of the 52,000 miles of roads were 
constructed for purpose and what portion of the 52,000 miles 
were created by accident, so to speak, by people not authorized 
to use them? What is the final breakout of that?
    Mr. Stewart.  In fact, we do not have an estimate by the 
type of road or the purpose of the road. In other words, 
whether it was temporary access for timber, or whether it was 
for fire purposes.
    Mr. Hill.  So, the 52,000 miles of roads now that were 
previously referred to as ghost roads now do include both 
categories.
    Mr. Stewart.  Yes, they did.
    Mr. Hill.  But the 366,000 miles of roads, which are now 
called classified roads, are now defined as those constructed 
to maintain long-term highway vehicle use. Is that correct?
    Mr. Stewart.  That is correct; and at least 50 inches wide.
    Mr. Hill.  Now, we have added another new term in the 
rulemaking. That is an unroaded area. That is not a roadless 
area. Is that correct? A non-roaded and a roadless area are not 
the same definition. Is that correct?
    Mr. Stewart.  That is correct.
    Mr. Hill.  A roadless area would be an area that could have 
included an unclassified road. Is that correct? I mean, it 
could not have included an unclassified road. Is that correct?
    So, we have, in essence, expanded the definition with kind 
of a twist here that the unroaded area will be substantially 
larger than the previous roadless area. Is that correct?
    Mr. Stewart.  Yes, it will.
    Mr. Hill.  That concerns me some because obviously what you 
are doing here is you are having focus groups in an effort to 
try to determine how you are going to influence public opinion 
on this subject.
    By just slightly changing that definition, because a 
roadless area is something that has been defined in the West. 
We have developed management plans around that term. We 
understand what it means.
    We understand what it means in terms of management of the 
forests. Now, introducing this new term called unroaded area, 
we are going to confuse the public, I am sure; probably 
purposely.
    Let me ask you something about these focus groups. You are 
holding focus groups. Will you provide for the Subcommittee the 
names of the individuals and the groups that will be 
participating in these focus groups?
    Mr. Mills.  Yes, we will.
    Mr. Hill.  Will you provide those to this Subcommittee 
within the next week?
    Mr. Mills.  Yes, we will, if they have been selected by the 
contractors. In some of those focus groups----
    Mr. Hill.  To the extent that they have been identified by 
the contractors, you will provide the names and the names of 
the groups?
    Mr. Mills.  Yes, we will.
    [The list of focus groups referred to may be found at the 
end of the hearing.]
    Mr. Hill.  Will you also provide to the Subcommittee the 
questions that will be asked to the focus group members so that 
we can have some sense of what the purpose of those focus 
groups are?
    To the extent that those are not currently designated, will 
you provide to the Subcommittee within, let us say, 10 days of 
when you do that, the names of the individuals and the groups 
that they represent?
    Mr. Mills.  Yes, we will.
    [The focus group questions referred to may be found at the 
end of the hearing.]
    Mr. Hill.  Okay. Thank you very much.
    Let me go on, if I could. In essence, we have had, what, 13 
months since the announcement of the proposed rule on the 
roadless areas. We are adding another 18 months.
    I think that Chief Dombeck indicated to us in his testimony 
a year ago that 18 months would be a sufficient period of time 
to do an analysis of the current road transportation management 
plan, in order to make recommendations either to the Congress 
or to make changes.
    Now, we are adding another 18 months, in essence to that 
process. Was Mr. Dombeck wrong when he said he could do it in 
18 months that now requires 31 months?
    Mr. Stewart.  Let me start on that. Maybe Dr. Mills would 
like to add something to that or perhaps Ray Solomon also. What 
we announced, of course, 13 months ago was the intent to 
develop an interim policy and then go through a public input 
process.
    Direction was issued to the field by the Deputy Chief for 
the National Forest System that during that period of time, 
that they should not implement that policy.
    However, we are aware that some managers locally made the 
decision to at least, if not modify, certainly change some 
plans that they were proposing and not to activities that would 
require road building in roadless areas. That was a local 
decision; certainly nothing done as a part of a national thing.
    Mr. Hill.  Let me just clarify that point because we have 
to go vote here. What you are saying is that any of the timber 
sales or any of the roads that were anticipated to be built 
during this interim period of time, the decision to not go 
forward with those sales were made by the local supervisors and 
the regional foresters without any input from Washington.
    Mr. Stewart.  Certainly to my knowledge, there was never 
any national direction. In fact, the national direction which 
came from the Deputy Chief for National Forest Systems said 
that they should not implement that until we had a final rule.
    Mr. Hill.  Thank you very much, Mr. Chairman.
    Mr. Peterson.  The gentleman from Washington.
    Mr. Smith.  Thanks. I will be brief because we have to run 
and much of the area has been well-covered by the questions and 
the answers of the two different panels.
    Basically what we are wrestling with on this is you have 
both recreation and logging use access to public lands. The 
other thing we are wrestling with is I agree with a lot of 
folks who have talked about how access to public lands is very, 
very important to all of us.
    That is something that we like about living in this country 
and certainly we like about my neck of the woods living up in 
the Northwest. The question is making sure that, that 
recreation and access or timber for that matter is not just 
available for those of us currently on the planet, but for 
those of us in the future.
    I would hope we would want to leave that legacy and 
maintain some level of access for recreation and hopefully even 
logging. Now, the problem is more and more people want to do 
these things.
    There is more and more demand, and that taxes the ability 
to conserve those resources. Whether it is a snowmobile, or a 
truck, or just people out there camping, it can have the effect 
of wearing down the resource; particularly if you are talking 
about roads, if you are talking about access. Maintaining that 
balance is a very difficult task.
    It is sort of like what happened in the suburbs. Everyone 
wanted to live there, partially, because it was not as crowded. 
You were away from the dense urban centers, and you could have 
some space.
    Well, the problem was, everyone wanted to do that. 
Eventually, you had the same crowding and the same problem in 
the suburbs. We are wrestling with that and trying to deal with 
it.
    That is the problem we have on public lands. You gentlemen 
have a very difficult job trying to do that. You have a 
difficult job just trying to maintain the current uses, much 
less thinking about the future and thinking about conservation 
to make sure that we do not use it all up and deny future 
generations of that same access.
    So, I would just as to try to employ that balance as best 
you can in conservation and also usage. That is basically, I 
guess, all I have to say.
    The other thing that would be interesting is that as you 
play out these statistics is to truly break down the difference 
between recreation and logging.
    If you are talking about new roads, at least when they are 
initially built, you are talking about logging. That is kind of 
my impression. Others may disagree. Now, maybe 5 or 10 years 
down the road after you have built the new road, it opens up 
all kinds of new uses.
    The new roads are primarily logging issues. If recreation 
is your concern, then maintenance should be your concern. 
Basically, that is all I have to say.
    Mr. Peterson.  I want to thank the panelists. We are going 
to cut it off at this because we have to go vote and we will 
not hold you up.
    There will be some questions submitted in writing that will 
allow some of the panelists who did not get to ask some of 
their questions.
    [The questions referred to may be found at the end of the 
hearing.]
    Mr. Peterson.  So, we want to thank you very much for 
participating today. There was a statement here. You said you 
wanted to work with us. The Subcommittee appreciates that, but 
let us start working together and see if we can bring this to a 
positive solution without taking years.
    Mr. Stewart.  Thank you, Mr. Chairman.
    [The prepared statement of Ms. Chenoweth may be found at 
the end of the hearing.]
    [The prepared statement of Mr. Amador may be found at the 
end of the hearing.]
    [The prepared statement of Mr. Squires may be found at the 
end of the hearing.]
    Mr. Peterson.  The hearing is adjourned.
    [Whereupon, at 11:58 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
    Statement of Dr. David L. Adams, Professor of Forest Resources, 
Emeritus, College of Forestry, Wildlife and Range Sciences, University 
                                of Idaho

Chairman, Members of the Committee:
    My name is Dave Adams and until recently I was Professor of 
Forest Resources in the College of Forestry, Wildlife and Range 
Sciences at the University of Idaho. My specialty is 
silviculture with emphasis on forest health and sustainability.
    I welcome the opportunity to comment on the importance of 
road access to accomplish forest health and other forest 
management activities. Silviculture may be defined as the 
management of forest vegetation to meet objectives, whatever 
they may be. Perhaps the most important forestry objective is 
to manage forests to sustain their long-term productive 
capacity--capacity to not only produce wood fiber but to foster 
wildlife through maintenance of appropriate habitat, to provide 
a source for clean water, for recreational opportunities and 
many other commodity and amenity values. I am concerned that, 
without adequate access, we will not be able to manage for 
sustainable forests.
    With the decreased levels of timber harvest on Federal 
lands it is often assumed that managers can just lock the 
gates, rehabilitate the roads and walk off. This is not the 
case. There is silviculture, or management of forest 
vegetation, to do whether or not it is done for the purpose of 
providing wood fiber to local mills, and it is very difficult 
to accomplish needed practices without access.
    A very important aspect of sustainable forest management is 
to avoid the conditions which promote insect outbreaks, the 
spread of tree diseases, and damaging wildfires. I know that 
all members of this committee are quite knowledgeable about the 
insect, disease and wildfire problems that are facing many 
forested areas of the country. As you know, past conditions and 
events such as fire exclusion, early logging practices, 
introduction of exotic pests, grazing of domestic livestock, 
and the mere presence of settlers have caused changes in our 
forests. Forest density and tree species composition are 
commonly much different from those of historic forests. For 
example, in Idaho, forests of the ``white pine region'' are now 
dominated by grand fir and other species where western white 
pine (our state tree) was historically predominant. 
Unfortunately, the firs are much more susceptible to root rots, 
bark beetles, and defoliators than were the pines. An exotic 
disease, introduced from Europe, early selective logging and 
fire exclusion contributed to this change.
    In southern Idaho, forests which were predominately 
ponderosa pine and western larch before the turn of the century 
are now dominated by dense stands of Douglas-fir and true firs. 
Stands which historically carried 25 to 30 ponderosa pine trees 
per acre now support over 500 Douglas-firs per acre, causing 
moisture stress and increased susceptibility to bark beetles 
and wildfire damage. And, because of shade tolerance, the firs 
maintain branches on the lower parts of the boles, providing 
``ladder fuels'' which carry ground fires into the crowns.
    The main point here is that much of the forest is different 
from conditions 50, 75, or 100 years ago. And the current 
conditions are leading to increased damage from forest pests 
and wildfire. Insects, diseases and wildfires have always been 
a part of the forests--and the forests would not do well in 
their absence--but the widespread outbreaks and the recent 
catastrophic fires were not common occurrences in the past.
    Harvest rates in the Rocky Mountains are about 29 percent 
of growth, and for the nation as a whole, growth exceeds 
harvest. The large difference between growth and removal, such 
as in the Rocky Mountains, is a disturbing situation, The 
result is a large buildup of forest biomass, and unfortunately, 
mother nature is taking care of this through increased insect 
and disease-caused growth loss and mortality, often followed by 
fire. With the abnormally large amounts of biomass, when the 
fires occur they are not the low-intensity ground fires that 
were common in much of the West, but are frequently high 
intensity fires that are difficult or impossible to control and 
which burn much longer in one place causing long-term site 
damage. Sites damaged by the intense fires can no longer 
sustain the values of the past. Another result of the large 
fires is that post-fire regeneration will be relatively uniform 
over large areas, reducing natural landscape variability.
    So, what do we do about this? First, density reduction, 
usually through thinning, is necessary over large areas. Then 
application of prescribed fires may be appropriate. Both of 
these activities require road access. It is unlikely that 
funding will be made available to the Forest Service to do the 
needed thinning and just leave the thinned trees on the 
ground--and even if this were possible it would not be 
advisable because of the fuel accumulation. All or part of the 
cost of thinning can be retrieved through sale of the trees 
removed, but this requires access. Safe application of 
prescribed fires also requires access.
    What can be done to move species composition back to more 
pest- and fire-resistant conditions? The solution, of course, 
is to regenerate the appropriate species, often through 
planting. But, before the sites can be planted, at least a 
portion of the existing trees must be removed. Both the harvest 
operations and the planting require road access.
    Another important forest roads consideration is the 
movement toward greater use of uneven-age management, including 
the single-tree and group selection methods, and less use of 
clearcutting and other even-age harvest/regeneration methods. 
The selection systems involve frequent entries to essentially 
all of a given unit; hence, the use of more extensive and more 
frequently maintained road systems. With even-age systems, 
access to a given stand is usually needed only once or twice 
over a rotation (rotations in the Inland West are commonly 80 
to 120 years). Infrequent access allows managers to close and 
often seed roads after a harvest cut and then reopen them for a 
thinning and then again for the next harvest. With uneven-age 
silviculture, access is needed at intervals of 10 to 20 years 
in the West. Therefore. it is not feasible to abandon or 
obliterate these roads after each entry as with even-age 
systems. So. these ``less-intrusive'' methods may actually 
cause greater impact due to the necessity for road systems that 
can be used more frequently.
    It is common knowledge that open roads do impact wildlife 
and that roads are a primary source of steam sedimentation. 
However, much more habitat damage and sedimentation results 
from widespread pest outbreaks and catastrophic wildfires. 
Whether the vegetation is managed for forest health, to enhance 
wildlife habitat, or to provide wood fiber, it is difficult if 
not impossible to accomplish without road access.
    I have had frequent discussions with concerned citizens who 
agree with the need to accomplish a given silvicultural 
prescription--as long as no new roads are built. It is a vexing 
dilemma.
    Thank you for the opportunity to express my opinions on 
this very important forest management issue.
                                ------                                


   Statement of Hon. Ron Marlenee, Consultant, Governmental Affairs, 
                       Safari Club International

Chairman Chenoweth and Members of the Subcommittee:
    Safari Club International is an organization representing a 
broad spectrum of sportsmen. Madame Chairman thank you for 
focusing this hearing on access, one of the greatest problems 
that sportsmen have today is access. Madame Chairman the 
greatest threat to the future of hunting is sufficient access 
for those who are not of substantial means. We now have an 
agency that proposes to curtail that access.
    I appear here today as the consultant for Governmental 
Affairs for Safari Club International. In my 16 years in 
Congress I served on the committees responsible for forest 
management in both the Agriculture Committee and the Resources 
Committee. I have seen good management and I have observed bad 
management. I have seen good proposals and bad proposals. The 
proposal to unilaterally close roads is a bad proposal for 
sportsmen and other recreational users. The proposal is so bad 
that it must have the dedicated professionals in the Forest 
Service shaking their heads. As a matter of fact, professionals 
bold enough to do so are expressing opposition. And many who 
are not bold enough are privately expressing resentment of the 
agenda for lock-up and lock-out.
    At Missoula, Montana on February 6th, 1999 in an AP wire 
story, Chief Dombeck equated recreationists and sportsmen to 
the timber industry and grazing. He stated, ``The recreation 
industry needs to take note, they need to look at some of the 
issues the timber industry ran up against 20 years ago. The 
side boards for recreation are no different than those for 
timber or grazing or any other use.'' In the same delivery he 
expressed satisfaction at the reduction of timber harvest by 70 
percent during the past ten years. Can we extrapolate that the 
Chief wants to see a similar reduction in recreational use?
    The road closure effort is not a timber issue as the 
Administration has been trying to spin. This is a reduction in 
hunting opportunity, a reduction in recreational use and be 
termed a recreation/hunter access issue. The Chief 
congratulated those managers who proposed banning cross-country 
travel with all-terrain vehicles. Their proposal would limit 
ATV use to established roads and trails. Then of course, they 
propose to eliminate as many roads and trails as possible. This 
of course means ATV's would be a thing of the past, even for 
game retrieval. It also has serious implications for 
snowmobiles.
    The agenda of lock-out is not new. I recall, approximately 
fifteen years ago a coalition of privileged users set down on 
paper the goals and agenda they wanted to achieve on public 
lands.

          (1) Eliminate timber harvest
          (2) Eliminate as many roads as possible
          (3) Eliminate all mechanical/motorized use
          (4) Secure all the wilderness possible
          (5) Eliminate horses
          (6) Eliminate hunting
          (7) Establish limits of human intrusion (Forest Service--
        limits of acceptable change)
    Because access on public lands is important to recreation, to good 
game management and to sportsmen, we have to question if the proposal 
to elmlinate access on public land is a political decision. The 
evidence that answers that question seem to indicate a strong yes. Of 
the seven items listed on the agenda, five have and are being 
accomplished. The purists have not achieved two of the goals, 
eliminating hunting and eliminating horses. However, given the ever 
increasing regulations and requirements on horses in the wilderness and 
the protection of designated species, they are moving in the direction 
of elimination.
    And by the way Madam Chairman, I have received rumors that the 
public land mangers are trying a new concept. That is that all public 
lands are off limits unless posted open.
    We have to question what happened to the validity of the Forest 
Management Plans that everyone participated in and that the taxpayers 
spent hundreds of millions of dollars on.
    We have to ask if the Forest Service is repudiating the credibility 
and credentials of its own personnel and the validity of its own 
findings. These were the professionals who evaluated watersheds, 
wildlife sensitive areas, recreational needs and validity of roadless 
and wilderness designations. The Forest Service does all of this prior 
to building a road or even establishing a trail.
    We as sportsmen question the intent of a suddenly conceived or 
politically instigated concept that the bureaucracy must invoke a 
moratorium and involve themselves in a new round of evaluations of 
existing access to property owned by the general public.
    If the Forest Service must persists in this duplicative effort, 
then sportsmen should have the opportunity to participate in a hearing 
on every forest. When ill feeling already exists about being denied 
access, then to deny the opportunity for input is an insult to 
sportsmen, the elderly, the handicapped and the family oriented 
recreationist. We want to insure that this new effort does not further 
erode an already diminishing access to recreational opportunity on 
public lands.
    Increasingly sportsmen are coming up against pole gates, barriers 
and no motorized vehicles signs when they arrive at the edge of public 
property. This Committee should demand to know how many miles of roads 
have been closed in the past ten years and how many pole gates and tank 
barriers have been put up in the past ten years.
    In an effort to justify further road closures the Forest Service 
implies that hunting in the forest system is having a negative impact 
on wildlife. They contend that access has led to ``increased pressure 
on wildlife species from hunters and fishers.'' My experience has been 
that the Forest Service consults extensively with state wildlife 
agencies and that the jurisdiction of wildlife and hunting is primarily 
a state right and responsibility. Because the Forest Service allegation 
appears in their public document, because it impugns the role of 
hunting in conservation and because it denigrates the capability of 
state wildlife management, I would suggest this Committee require the 
Forest Service to name even one state wildlife agency that is not 
fulfilling their obligation. We know of none and resent the fact that 
this ill thought out statement is being used to justify closures 
considerations that could be harmful to sportsmen and to wildlife 
management.
    The reason SCI is alarmed is that the public lands of the Forest 
Service are a destination for hunters in our country. Over 16 million 
days of hunting occurs annually in the National Forest. For many of 
these hunters and sportsmen the only opportunity to hunt is on the 
public land. Safari Club International is committed to insuring access 
in the forest for this group of sportsmen. We are gratified to have 
worked with both Federal public land mangers and State Fish and Game 
officials. We hope we can do so again in an attempt to find reasonable 
solutions.
    In closing Madame Chairman let me quote from Bruce Babbitt, in a 
February 1996 press release:

        ``Many American don't realize what an enormous contribution 
        hunters, anglers, and recreational shooters make to 
        conservation of our natural resources. In fact, these 
        individuals are among the Nation's foremost conservationists, 
        contributing their time, money, and other resources to ensuring 
        the future of wildlife and its habitat. Under the Federal Aid 
        program alone, a total of more than `5 billion in excise taxes 
        has been a total of more than to support state conservation 
        programs.' ''
    This statement should be handed personally to Chief Dombeck with 
the question; Do you really want to curtail one of the greatest 
conservation success stories of all time?
                                 ______
                                 
    Statement of Kelita M. Svoboda, Legislative Assistant, American 
                        Motorcyclist Association
    Chairman Chenoweth and members of the Subcommittee, my name is 
Kelita Svoboda. I am the Legislative Assistant for the American 
Motorcyclist Association. On behalf of the AMA and its over 232,000 
motorcycle enthusiast members I thank you for the opportunity to be 
here today, and to provide comments on the Forest Service's road 
moratorium and long-term road policy.
    The AMA is not opposed to the Forest Service taking a close look at 
roads on our National Forests. With the ever increasing use of forest 
roads by recreation-related vehicles, it only makes sense to work with 
the public to develop a long-term strategy for addressing recreation 
needs. Forest roads need to be built to safety and environmental 
standards fitting for the estimated 1.7 million recreation-associated 
vehicles traveling those roads every day.
    However, we strongly disagree with the way the Forest Service has 
approached and implemented the interim road moratorium. We would like 
to draw your attention to a number of our concerns.
    We were extremely disappointed to learn that after a contentious 13 
month interim moratorium on road construction and reconstruction, the 
Forest Service will now begin its official moratorium to last an 
additional 18 months. The MA finds this even more frustrating given the 
fact that on February 25, 1998, Forest Service Chief Mike Dombeck 
admitted to Representative Schaffer in testimony before this 
Subcommittee that the Agency could probably devise a long-term policy 
without a moratorium. This action begs the question: Why would an 
agency that readily admits it doesn't need to displace the public for 
any amount of time, devise a strategy that would do just that for a 
minimum of two and a half years?
    We continue to be concerned with the methods by which the Forest 
Service collected data from the public and the continued use of ill-
defined terms by the Agency. Open-houses sponsored by the Forest 
Service last year seeking friendly input from the public were anything 
but friendly to the public. More likely than not an attendee to one of 
these open houses found a video tape playing on a television extolling 
the virtues of the Forest Service's plan.
    Furthermore, if an attendee were inclined to offer comment they 
would be directed either to where they could submit a written statement 
or worse yet, find a tape-recorder to speak into hoping that their 
comments would be heard by someone, anyone, in the future. If they were 
fortunate enough to find a Forest Service representative, they were 
often met with a general disinterest in what they had to say. Our 
Federal agencies should do a much better job in collecting public 
opinion.
    We have serious concerns over the Forest Service's ability to 
obtain comment without being able or willing to clearly define critical 
terms consistently. For example, depending upon one's perspective and 
experience, the terms road, roadless, unroaded, ghost road, vehicle, 
highway use, decommission, and upgrade, can mean any number of 
different things. It seems impossible to receive credible and 
comparable comments when the Forest Service has not provided the public 
with a precise definition of the proposal's terms.
    It is exactly this type of confusion that prevents the public from 
engaging in a coherent dialogue with the Forest Service about the road 
moratorium.
    While we appreciate the efforts of Forest Service staff to include 
a new paragraph in the final rule, which attempted to define a road, it 
fell far short of its intention to fully clarify the interim rule.
    Under the Forest Service definition, ``unroaded'' areas can contain 
unclassified roads--routes that are more than 50 inches wide and not 
intended for long-term highway use. The definition of ``unroaded'' 
areas also fits many all-terrain vehicle (ATV) trails and connector 
trails used by off-highway motorcyclists. Many off-highway vehicle 
(OHV) trails are over 50 inches wide because the mini-dozer blade that 
is used to construct the trails are 50 inches wide. Even with these 
definitions, the final rule is still unclear as to whether the 
moratorium applies to roads that are constructed or maintained as 
designated, recreational trails, but are not part of the Transportation 
System.
    I assure you that any trail is likely to be over 50 inches wide at 
some point along the course of the trail. As currently worded, the term 
``unroaded'' could thus encompass all recreational trails as roads, 
dependent upon interpretation by Forest Service personnel. These 
``roads'' could then be decommissioned and made unavailable to the 
public forever.
    For the reasons I have outlined, the Forest Service should alter 
its ``50 inch'' definition of a ``road'' to simply apply to vehicles 
over 50 inches wide, not vehicle travel ways. This would reduce 
confusion and make it clear that designated recreational trails are to 
be excluded from the road moratorium.
    While we were told that the moratorium will not directly affect any 
single-track motorcycle trails, we remain concerned that the closures 
could block access to the connector trails that lead to these single-
track trails, effectively closing them as well. As currently worded, it 
appears that the moratorium is aimed at reducing access to an entire 
class of trails with the intention of eventually closing them 
permanently. Indeed, as the Federal Register notice of the final 
interim rule on February 12, 1999 states, ``. . . construction and 
reconstruction of unclassified roads in certain unroaded areas will be 
suspended as described in paragraph (b) of the final interim rule.'' 
(Federal Register, Vol. 64, Number 29, 36 CFR Part 212, p. 7297).
    In addition to motorcycles, AMA's members enjoy other off-highway 
vehicles such as ATV's, snowmobiles, and 4 x 4's. Our members have 
established themselves within the outdoor recreation community as a 
responsible and environmentally friendly user group. They provide the 
Forest Service and other land management agencies with extensive 
volunteer hours for trail maintenance, graffiti removal from shared 
public facilities, and to ensure that all motorized recreationists obey 
trail rules.
    We have worked with Forest Service staff for decades on developing 
environmentally responsible motorized trail management. However, we 
have recently had a difficult time defending that relationship to our 
members. They are extremely upset and disappointed with the way the 
Forest Service has gathered public input and even more so over the 
official moratorium.
    The Forest Service is currently developing a long-term road policy. 
We are hopeful that the Agency has learned from the mistrust it created 
with the interim moratorium and will work with user groups to form 
clear definitions for all terms in order to provide a credible basis 
for collecting public comments.
    Any long-term strategy needs to avoid placing priority upon the 
``aggressive decommissioning'' of roads. Not only should these 
decisions be made at the local level with public involvement, but the 
priority should be on turning ``roads'' into trails, which are already 
in high demand by the public. The Forest Service should also define the 
terms ``aggressive'' and ``decommission,'' because they mean different 
things to different users. Moreover, the Forest Service should pay 
closer attention to how much environmental degradation could occur if 
they remove an entire road, versus allowing it to become part of the 
landscape again through partial removal or simply letting nature run 
its course.
    Additionally, the Forest Service needs to provide an improved forum 
for soliciting public input. A true ``town hall'' style meeting, would 
provide the public an opportunity to have discussions with Forest 
Service personnel and other members of the community. This type of 
meeting would be more beneficial than ``open houses,'' and therefore 
gain greater public support.
    Overall, it is incumbent upon the Forest Service to provide the 
same, accurate information to all of the Forest supervisors, district 
rangers, and those who have contact with the public to ensure that 
consistent policies, procedures and definitions are being circulated in 
regard to the road moratorium.
    Thank you again for the opportunity to provide these comments. It 
has been a privilege to be here today, and I would be happy to answer 
any questions you might have.
                                 ______
                                 
 Statement of Ron Stewart, Deputy Chief, Forest Service, United States 
                       Department of Agriculture
MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to be here today to discuss the 
status of the Forest Service revised road policy. I am Ron Stewart, 
Deputy Chief for Programs and Legislation for the USDA Forest Service, 
and I am accompanied by Thomas L. Mills, Director of the Pacific 
Northwest Research Station.
    Forest roads are an essential part of the transportation system in 
many rural parts of the country. They help to meet the recreation 
demands while providing economic opportunities from the National Forest 
System. The benefits of forest roads are many, but roads also create 
many ecological impacts on our watersheds. As the Natural Resource 
Agenda emphasizes, the Forest Service needs to maintain a road system 
to provide public access while reducing and reversing their 
environmental effects. The revised road policy is an essential part in 
implementing the agenda.
    Our progress in developing the revised road policy can be outlined 
in three key steps:

          First, the Forest Service implemented a temporary suspension 
        to provide a time-out from building new roads into unroaded 
        areas where costs of construction are usually high and values 
        at risk are high, as well. This temporary suspension went into 
        effect on March 1, 1999, and will expire upon the adoption of 
        the revised road management policy or 18 months, whichever is 
        sooner.
          Second, the Forest Service is developing a road analysis 
        procedure. This procedure will assist managers in using the 
        best science to decide where, when, or if to build new roads in 
        unroaded as well as roaded areas. The procedure will be 
        available in 1999.
          Third, the Forest Service is developing new regulations and 
        direction to provide an environmentally sound road system that 
        meets the needs of local people. The revised road policy is 
        scheduled to be completed by fall of 2000.
    I would like to take a moment to expand on each of these steps.

TEMPORARY SUSPENSION

    The temporary suspension is necessary to allow us to protect 
socially important and ecologically valuable unroaded areas while we 
develop a protective and responsible revised road policy.
    The potentially damaging ecological effects of a first entry into 
an unroaded area are often proportionately greater than the effects of 
similar construction or reconstruction in an already roaded area. The 
temporary suspension will provide time to refocus attention on the 
larger issues of public use, demand, expectation, and funding 
surrounding the National Forest road system.
    The current road system developed to meet the transportation needs 
of the 1960's and 1970's does not reflect the needs of today. Timber 
hauling has decreased over time while recreation traffic has grown 
dramatically. Today, there are over 1,706,000 recreation vehicles per 
day on forest roads and 15,000 timber harvest vehicles per day. Timber 
traffic represents less than one percent of all forest road use.
    Road management is a long-term financial commitment; as long as a 
road exists then it must be maintained. The national forest road system 
has 383,000 miles of classified roads and 52,000 miles of unclassified 
roads. Classified roads are roads constructed or maintained for long-
term highway vehicle use. Unclassified roads are temporary roads or 
short-term roads associated with fire suppression, timber harvest and 
oil, gas or mineral activities as well as travelways resulting from 
off-road vehicle use.
    Based on information we are preparing for a report to Congress on 
Forest Service maintenance and improvement needs, we estimate that with 
just the classified roads we have a deferred maintenance and capital 
improvement needs backlog of $8.4 billion and growing. Currently we 
only receive 18 percent of the funding needed to annually maintain 
roads to planned service, safety and environmental standards. Even with 
the significant increase in our budget request for FY 2000, funding 
does not address the annual maintenance needs or begin to address the 
backlog.
    It is fiscally and environmentally irresponsible to continue to 
build roads when our current road system is in such disrepair and 
decline. Without adequate funding, the system will continue to decline 
causing environmental damage and posing human safety risks.

Effects of the Temporary Suspension

    Based on the environmental assessment and Finding of No Significant 
Impact signed on February 2, 1999, the Forest Service anticipates no 
long-term effects on the production of forest resources as a result of 
implementing the temporary suspension. However, we did identify and 
analyze some short-term effects in the environmental assessment and 
benefit/cost analysis.
    The primary tangible effects include:

          The policy will suspend approximately 368 miles of 
        construction and reconstruction of roads in unroaded areas. 
        This represents a suspension of 4 percent of the permanent and 
        temporary road construction and reconstruction within the 
        National Forest road system during the 18-month period.
          The suspension in road construction and reconstruction will 
        reduce the potential timber harvest approximately 200 million 
        board feet. This is approximately 3 percent of the volume 
        offered from National Forest system lands during an 18-month 
        period. However, since National Environmental Policy Act 
        requirements have not been completed on a significant amount of 
        this 200 million board feet, and some forests will be able to 
        shift harvest programs to roaded areas, the actual affected 
        harvest volume could be considerably less than what is 
        estimated.
          As an indirect result of the suspension, we estimate a 
        reduction in annual employment nationwide of about 300 direct 
        timber jobs per year over 3 years. To the extent that workers 
        can not find alternative employment, local and county revenues 
        will be decreased. There could also be an annual loss of about 
        $6 million to local communities from payments-to-states from 
        the 25 percent fund. These potential losses of employment and 
        revenue may be offset by substitution of timber volume from 
        areas not subject to the suspension and also by utilizing 
        volume already under contract awaiting harvest. Also, the 1998 
        Supplemental Appropriations Recission Act (Pub. Law 105-174) 
        may, to some extent, compensate for shortfalls in payments-to-
        states. Section 3006 of this Act provides compensation for loss 
        of revenues that would have been provided to counties if no 
        road moratorium, as described in subsection (a)(2), were 
        implemented or no substitute sales offered as described in 
        subsection (b)(1). In addition, if enacted the Forest Service 
        proposal to stabilize 25 percent fund payments would mitigate 
        the economic effects on counties and states.
          The Forest Service has a wide array of programs to assist 
        communities and we are committed to work with communities to 
        identify and implement assistance programs while the interim 
        rule is in effect.

ROAD ANALYSIS PROCEDURE

    The second step is the development of the road analysis procedure. 
This procedure includes:

        a new science-based, multi-scale landscape analysis of 
        ecological, social, and economic aspects of Forest Service road 
        systems;
        a process to help land managers make informed land management 
        decisions about the management of roads, including maintenance, 
        construction in both roaded and unroaded areas, reconstruction, 
        or decommissioning; and
        an expansion and extension of previous roads analysis tools and 
        techniques.
    During the last 12 months the Forest Service field tested the draft 
procedure on six national forests. The draft procedure is now 
undergoing a rigorous scientific peer and technical review. We expect 
to have the road analysis procedure available by 1999.

REVISED REGULATIONS AND DIRECTION

    The third step is to revise regulations and directions for 
administration of the Forest Service Transportation System pertaining 
to roads. The revised road policy will:

        update current road regulations and directions to provide the 
        minimum forest road system that best serves the management 
        objectives and public uses of national forests and grasslands;
        ensure that the road system provides for safe public use, 
        economically affordable and efficient management, and is 
        environmentally sound;
        ensure that road management decisions use a science-based 
        analysis process to fully evaluate benefits and impacts of road 
        systems within both unroaded and already roaded portions of the 
        landscape;
        ensure that new road construction does not compromise socially 
        and ecologically important values of unroaded areas; and
        ensure that regulations and direction will reflect budget 
        realities.
    As a result of the Advanced Notice of Rule Making (ANPR) published 
in the Federal Register in January 1998, we received a great number of 
comments on the values of unroaded areas and the proposed revised road 
policy. We plan to publish the draft policy, including response to the 
initial comments, in the Federal Register this fall for further public 
comment. The revised road policy should be finalized by Fall of 2000.

SUMMARY

    Madam Chairman, the Forest Service shares your concern for a 
transportation system that is adequately funded and meets the needs of 
all Americans.
    With the implementation of the temporary suspension and the 
progress made on the road analysis procedure, we can now complete the 
new policy that will provide a science-based process enabling us to 
manage our road system in a manner that reduces environmental impacts 
and improves habitats and water quality.
    This policy is a first step in focusing our limited resources on 
the roads most in need. We also need your support to fund adequately 
the reduction of our enormous backlog in road maintenance and 
reconstruction.
    This concludes my statement. I would be happy to answer any 
questions you and Members of the Subcommittee may have.
                                 ______
                                 
 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho
    Today the Subcommittee on Forests and Forest Health convenes to 
review the Forest Service's current and proposed road management 
policies. In particular, we will focus on the Forest Service's progress 
in developing a long-term road management policy, which it initiated in 
January, 1998. We will also look at the agency's 18-month moratorium on 
construction and reconstruction of roads in roadless areas, which was 
first announced thirteen months ago but which formally took effect only 
this week.
    This policy has generated a great deal of interest and concern over 
the past year. And since the Forest Service should now be two-thirds 
completed with the development of its long-term road management policy, 
I must ask why the agency decided to announce, three weeks ago today, 
the beginning of the 18-month moratorium. I fear it is because they 
have not accomplished much on the long term policy. Last year, after 
his initial announcement of the moratorium, Chief Dombeck testified 
that the moratorium was not yet in effect. But, in reality, it has been 
in effect ever since, because the Forest Service's land managers 
immediately altered any plans they had to enter roadless areas that 
would qualify under the proposed moratorium. By my count that makes it 
a two-and-a-half year moratorium.
    One of my biggest concerns with the moratorium is its effect on the 
condition of our forests. The Forest Service has repeatedly told us 
that they have 40 million acres of national forest land at high risk of 
catastrophic fire. Their new insect and disease maps verify that this 
risk is only increasing--especially in Idaho, where much of the 
northern part of the state is mapped in red, indicating that 25 percent 
or more of the trees are expected to die within the next 15 years! This 
is a catastrophic condition that requires human intervention if we hope 
to keep our forests for our own and future generations.
    Dr. David Adams, Professor of Forest Resources, Emeritus at the 
University of Idaho, submitted testimony for our hearing but 
unfortunately could not attend today. He is well known for his work on 
forest health and sustainability, and I greatly respect his views. With 
the Subcommittee's indulgence, I would like to read a few lines from 
his statement and submit it in its entirety for the record.
    Dr. Adams wrote:

          ``I am concerned that, without adequate access, we will not 
        be able to manage for sustainable forests.''
    He explains:

          ``A very important aspect of sustainable forest management is 
        to avoid the conditions which promote insect outbreaks, the 
        spread of tree diseases, and damaging wildfires . . . As you 
        know, past conditions and events such as fire exclusion, early 
        logging practices, introduction of exotic pests, grazing of 
        domestic livestock, and the mere presence of settlers have 
        caused changes in our forests. Forest density and tree species 
        composition are commonly much different from those of historic 
        forests . . . .''
    Dr. Adams then offers an appropriate solution:

          ``First, density reduction, usually through thinning, is 
        necessary over large areas. Then application of prescribed 
        fires may be appropriate. Both of these activities require road 
        access. It is unlikely that funding will be made available to 
        the Forest Service to do the needed thinning and just leave the 
        thinned trees on the ground--and even if this were possible it 
        would not be advisable because of the fuel accumulation. All or 
        part of the cost of thinning can be retrieved through sale of 
        the trees removed, but this requires access. Safe application 
        of prescribed fires also requires access.''
    Dr. Adams concludes his testimony with the observation that while 
roads do impact wildlife and contribute to stream sedimentation,
        ``much more habitat damage and sedimentation results from 
        widespread pest outbreaks and catastrophic wildfires.''
    I must mention one other concern that I have heard. In the Forest 
Service's estimates of the impacts of the moratorium, we have been told 
how many miles of road construction, reconstruction and temporary 
roads, and how much timber volume, will be impacted in planned timber 
sales and ``forest projects'' over the next year. Yet the Washington 
Office has not displayed the extent of these impacts on the local 
communities that will surely occur if the volume is not replaced by 
other sales available to the same local economies during the same time 
period. I am told that field staff estimate the projected loss of 30 
million board feet on the Boise and Payette National Forests, for 
example, will result in 300 lost jobs and at least $11 million in lost 
income to the community. There will be a corresponding drop in 25 
percent funds to States and Counties, directly impacting school and 
county budgets. The Forest Service must be prepared to address these 
and other impacts of the moratorium now, not when the long term policy 
is completed.
    I have not mentioned my concerns about recreation access, because 
we have two excellent witnesses available to address this subject. I 
look forward to the testimony of all our witnesses, and I thank you all 
for your willingness to appear before us today.
                                 ______
                                 
 Statement of Owen C. Squires, Pulp and Paperworkers Resource Council, 
                         Rocky Mountain Region

    Madam Chairman, ladies and gentlemen, my name is Owen C. Squires. I 
am employed at Potlatch Corporation in Lewiston, Idaho as a digester 
cook in the pulp mill. I am here representing the Rocky Mountain Region 
of the Pulp and Paperworkers Resource Council [PPRC], an organization 
with 300,000 members nation-wide.
    I am saddened and alarmed by Forest Service efforts to achieve some 
romantic notion of management of our public forests in which people 
play no part. The road moratorium is just the latest example of hand-
off denial by an agency that has lost its way and is now wandering in 
the wilderness of conflicting social values that marks the end of our 
century.
    Roads provide access to public lands for a variety of reasons that 
are well known to this Committee. What is not well known is that roads 
are also the keys to managing people and resources in ways that allow 
for sustainable forests over time. Roads provide access for recreation 
and allow us to manage recreation impacts. They also provide a way to 
keep forest healthy by entering diseased stands and removing sick and 
dying trees, thinning overcrowded trees, and managing fire, wild and 
prescribed. Remove the roads or artificially manage roads to meet 
philosophical rather than real on-the-ground objectives and you remove 
the ability managers have to respond to specific situations in 
appropriate ways.
    For example, north Idaho is experiencing the worst outbreak of 
Douglas fir bark beetle we have ever known. These are not my words but 
the words of Idaho Department of Lands entomologist, Ladd Livingston, 
and Idaho Panhandle forest supervisor Dave Wright. Tens of thousands of 
acres of trees are at stake. Some of the worst outbreaks are in 
roadless areas as defined by the moratorium. These areas were not named 
as wilderness in any Act of Congress. Environmentalists did not 
identify them in Forest plans as important to the environmental 
industry. But the moratorium by definition has removed any opportunity 
we might have had to enter these areas and remove dead and dying trees 
and improve conditions in timber stands. Nor is this situation unique 
to north Idaho. I need not revisit the mountains of research telling us 
that western forests are in trouble everywhere.
    No less a self-proclaimed authority on forest health than Dr. Art 
Partridge, a forest science professor, late of the University of Idaho, 
claims that this is not a problem at all but is a smoke screen, a shell 
game used by industry to just cut more trees. Dr. Art claims bugs are 
``natural'' in this situation and they should be allowed to run their 
course, that people have no claim to salvage the trees for human use.
    Madam Chairman, cancer is natural. I am among those who hope 
fervently that we are not content to let cancer run its course without 
a fight. The war on cancer requires avenues of approach. Bark beetle 
management--and management needs in general--require avenues of access 
if we are to have the flexibility we need to manage the land.
    Mr. Livingston says managed forests are impervious to beetle attack 
and I believe him, Mr. Partridge says we should stand back and watch 
our forests burn, banquets for bugs, graveyards of neglect, fuel for 
killing fires. I reject that categorically.
    We need our roads. We need the ability to put roads in places where 
we need them, and take them out of places where we do not.
    This simplistic approach of the Forest Service will cost our 
society greatly in the coming decade. It will not be in overstatement 
when I stand in the middle of hundreds of thousands of acres of 
blackened timber and ruined lives a few years down the road and 
proclaim that the Forest Service road policy and environmentalist 
agendas brought us to this place. I will hold those who hold forest 
management hostage responsible and liable, morally and in fact, for the 
destruction that will surely come, our prayers notwithstanding. They 
have veto power over public forest management but my claim to the 
public forests is as strong as theirs.
    In the small town of St. Maries, Idaho, a town so beautiful it can 
move you to stillness in any season of the year, stands a monument to 
over 50 firefighters who died in battle on a hot day in August in 1910 
in the Big Creek drainage near St. Maries. A contributing reason for 
their deaths was the lack of roads and access. There's room in the 
circle of heroes at St. Maries for more Idaho firefighters and I pray 
we will not gather there again under such sad circumstances.
    But public safety is at stake. And this is not a smokescreen. 
Flagstaff, Arizona almost burned in 1996 from a wildfire in unmanaged 
stands of trees. Please review a copy of the March 1 edition of the 
High Country News, the preeminent publication of the views of 
environmentalists in the West [attached]. I promise you, Madan 
Chairman, that the headline says ``Working the land back to health.'' I 
almost cried when I read Ed Marston's passionate appeal to others of 
his ilk to work with ``people who work the land, who can invent 
machinery and logging and grazing techniques, and who can put together 
capital and labor and markets to restore the land.'' I am labor, and I 
welcome Mr. Marston to the table and I stand ready to help.
    The safety of our rural communities like Coeur d'Alene and 
Sandpoint and St. Maries is directly at stake. This is real. The Forest 
Service says so and I believe them. And we need roads. And Mr. Marston 
knows it. And I know it. And you know it. And the operational Forest 
Service--the Forest Service on the ground in Idaho--know it. So I guess 
we just need to get the word to Mike Dombeck, somehow. The long-term 
health of the land demands it.
    This concludes my remarks and I stand for questions.

    [GRAPHIC] [TIFF OMITTED] T5773.001
    
    [GRAPHIC] [TIFF OMITTED] T5773.002
    
    [GRAPHIC] [TIFF OMITTED] T5773.003
    
    [GRAPHIC] [TIFF OMITTED] T5773.004
    
    [GRAPHIC] [TIFF OMITTED] T5773.005
    
    [GRAPHIC] [TIFF OMITTED] T5773.006
    
    [GRAPHIC] [TIFF OMITTED] T5773.007
    
    [GRAPHIC] [TIFF OMITTED] T5773.008
    
    [GRAPHIC] [TIFF OMITTED] T5773.009
    
    [GRAPHIC] [TIFF OMITTED] T5773.010
    
    [GRAPHIC] [TIFF OMITTED] T5773.011
    
    [GRAPHIC] [TIFF OMITTED] T5773.012
    
    [GRAPHIC] [TIFF OMITTED] T5773.013
    
    [GRAPHIC] [TIFF OMITTED] T5773.014
    
    [GRAPHIC] [TIFF OMITTED] T5773.015
    
    [GRAPHIC] [TIFF OMITTED] T5773.016
    
    [GRAPHIC] [TIFF OMITTED] T5773.017
    
    [GRAPHIC] [TIFF OMITTED] T5773.018
    
    [GRAPHIC] [TIFF OMITTED] T5773.019
    
    [GRAPHIC] [TIFF OMITTED] T5773.020
    
    [GRAPHIC] [TIFF OMITTED] T5773.021
    
    [GRAPHIC] [TIFF OMITTED] T5773.022
    
    [GRAPHIC] [TIFF OMITTED] T5773.023
    
    [GRAPHIC] [TIFF OMITTED] T5773.024
    
    [GRAPHIC] [TIFF OMITTED] T5773.025
    
    [GRAPHIC] [TIFF OMITTED] T5773.026
    
    [GRAPHIC] [TIFF OMITTED] T5773.027
    
    [GRAPHIC] [TIFF OMITTED] T5773.028
    
    [GRAPHIC] [TIFF OMITTED] T5773.029
    
    [GRAPHIC] [TIFF OMITTED] T5773.030
    
    [GRAPHIC] [TIFF OMITTED] T5773.031
    
    [GRAPHIC] [TIFF OMITTED] T5773.032
    
    [GRAPHIC] [TIFF OMITTED] T5773.033
    
    [GRAPHIC] [TIFF OMITTED] T5773.034
    
    [GRAPHIC] [TIFF OMITTED] T5773.035
    
    [GRAPHIC] [TIFF OMITTED] T5773.036
    
    [GRAPHIC] [TIFF OMITTED] T5773.037
    
    [GRAPHIC] [TIFF OMITTED] T5773.038
    
    [GRAPHIC] [TIFF OMITTED] T5773.039
    
    [GRAPHIC] [TIFF OMITTED] T5773.040
    
    [GRAPHIC] [TIFF OMITTED] T5773.041
    
    [GRAPHIC] [TIFF OMITTED] T5773.042
    
    [GRAPHIC] [TIFF OMITTED] T5773.043
    
    [GRAPHIC] [TIFF OMITTED] T5773.044
    

</pre></body></html>
